<html>
<title> - SECURING OUR NATION'S MASS TRANSIT SYSTEMS AGAINST A TERRORIST ATTACK</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]






 SECURING OUR NATION'S MASS TRANSIT SYSTEMS AGAINST A TERRORIST ATTACK

=======================================================================

                                HEARING

                               before the

                     COMMITTEE ON HOMELAND SECURITY

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 4, 2011

                               __________

                           Serial No. 112-22

                               __________

       Printed for the use of the Committee on Homeland Security


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________

                  U.S. GOVERNMENT PRINTING OFFICE
72-232 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Daniel E. Lungren, California        Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Michael T. McCaul, Texas             Henry Cuellar, Texas
Gus M. Bilirakis, Florida            Yvette D. Clarke, New York
Paul C. Broun, Georgia               Laura Richardson, California
Candice S. Miller, Michigan          Danny K. Davis, Illinois
Tim Walberg, Michigan                Brian Higgins, New York
Chip Cravaack, Minnesota             Jackie Speier, California
Joe Walsh, Illinois                  Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         Hansen Clarke, Michigan
Ben Quayle, Arizona                  William R. Keating, Massachusetts
Scott Rigell, Virginia               Vacancy
Billy Long, Missouri                 Vacancy
Jeff Duncan, South Carolina
Tom Marino, Pennsylvania
Blake Farenthold, Texas
Mo Brooks, Alabama
            Michael J. Russell, Staff Director/Chief Counsel
               Kerry Ann Watkins, Senior Policy Director
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director













                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Peter T. King, a Representative in Congress From 
  the State of New York, and Chairman, Committee on Homeland 
  Security.......................................................     1
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security..............................................     3
The Honorable Laura Richardson, a Representative in Congress From 
  the State of California:
  Prepared Statement.............................................     4

                               Witnesses

Mr. John S. Pistole, Administrator, Transportation Security 
  Administration, Department of Homeland Security:
  Oral Statement.................................................     5
  Joint Prepared Statement.......................................     8
Mr. W. Craig Fugate, Administrator, Federal Emergency Management 
  Agency, Department of Homeland Security:
  Oral Statement.................................................     6
  Joint Prepared Statement.......................................     8
Mr. Richard Daddario, Deputy Commissioner for Counterterrorism, 
  New York City Police Department:
  Oral Statement.................................................    12
  Prepared Statement.............................................    13
Mr. Richard L. Rodriguez, President, Chicago Transit Authority:
  Oral Statement.................................................    14
  Prepared Statement.............................................    16
Mr. Daniel O. Hartwig, Deputy Chief of Operations, BART Police 
  Department, San Francisco Bay Area Rapid Transit (BART):
  Oral Statement.................................................    20
  Prepared Statement.............................................    21

                               Appendix I

Statement for the Record of the American Bus Association.........    43

                              Appendix II

Question From Honorable Laura Richardson of California for John 
  S. Pistole.....................................................    45
Question From Honorable Laura Richardson of California for W. 
  Craig Fugate...................................................    45
Question From Honorable Laura Richardson of California for 
  Richard Daddario...............................................    45
Questions From Honorable Laura Richardson of California for 
  Richard L. Rodriguez...........................................    45
Questions From Honorable Laura Richardson of California for 
  Daniel O. Hartwig..............................................    46

 
 SECURING OUR NATION'S MASS TRANSIT SYSTEMS AGAINST A TERRORIST ATTACK

                              ----------                              


                         Wednesday, May 4, 2011

                     U.S. House of Representatives,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:05 a.m., in Room 
311, Cannon House Office Building, Hon. Peter T. King [Chairman 
of the committee] presiding.
    Present: Representatives King, Smith, Rogers, McCaul, 
Walsh, Meehan, Long, Duncan, Marino, Farenthold, Thompson, 
Sanchez, Jackson Lee, Cuellar, Clarke of New York, Richardson, 
Davis, Higgins, and Keating.
    Also Present: Representative Al Green of Texas.
    Chairman King. Good morning. The Committee on Homeland 
Security will come to order.
    The committee is meeting today to hear testimony on the 
security of our mass transit systems in order to identify where 
progress has been made since the terrorist attacks of September 
11, 2001, and where shortfalls remain. We shall examine issues 
such as assessing the threat that mass transit systems face; 
information sharing between the Federal Government and the 
individual transit entities; the impact of the Transit Security 
Grant Program; and the extent of coordination between Federal, 
State, and local partners.
    I will now recognize myself for an opening statement.
    First of all, let me thank all of the witnesses for being 
here today. This is a vital issue. I want to thank all of you 
for being here, especially Craig Fugate, who has gone through a 
terrible few weeks doing just a tremendous job in a very 
horrendous situation in the South. Again, I want to thank you 
for your service.
    On a personal note, let me welcome Commissioner Daddario 
from the NYPD, who does a terrific job in New York. Also, as a 
point of mention, his late father was a United States 
Congressman. So I thank you for being here today.
    Again, thank all the witnesses for the work that you do. 
You are literally on the firing lines.
    Mass transit plays an absolutely critical role in our 
Nation. Coming from New York--and, certainly, people from 
Chicago, San Francisco, appreciate the same situation--so much 
we do depends on mass transit. We have millions of riders every 
day on mass transit.
    Yet, the reality is mass transit is probably the most 
difficult part of our transportation system to secure. It is 
the most vulnerable. Having been to London and to Madrid and 
seeing the terrible damage that was done there by al-Qaeda, you 
realize, one, in some ways how much easier it is for terrorists 
to attack mass transit and also how horrific the tragedy is 
when it occurs.
    So, my point today above all is, No. 1, to find out what 
you think the level of security is; what more you think has to 
be done; what level of information sharing there should be; but 
also to try to get the debate going.
    We do have to make cuts. There is no doubt that cuts have 
to be made. There is no doubt that Government spending has to 
be brought under control. We have to make sure that not one 
penny or $1 is wasted that is allocated to security. On the 
other hand, we cannot be achieving false economies by cutting 
in areas that could lead to loss of human life, which could 
encourage our enemy, especially now in the wake of bin Laden's 
death.
    We have to assume that al-Qaeda or its affiliates, al-Qaeda 
in the Arabian Peninsula, any of the others, or any of the 
radicalized terrorists here at home, self-starters, if you 
will, lone wolves, or organized terrorist operations in this 
country will launch a domestic attack. To me, clearly, if we 
are talking about potential targets, no one is more of a 
potential target than our mass transit systems.
    So I would hope that we, again, look carefully at any cuts 
that are made. At the same time, the burden is on, obviously, 
Government agencies to make sure that every penny is properly 
spent. But we cannot be making, I believe, false economies. 
Because, apart from the loss of human life, apart from the 
victory it would be for al-Qaeda if a successful attack should 
be carried out, the economic consequences. I mean, you have one 
mass transit attack in San Francisco or Chicago or New York, 
and the economic consequences of that to the country would far 
outweigh the dollar amount of any short-term cuts that may be 
made.
    So, basically, that is where I am coming from today. We 
know how real these threats are. We saw with Najibullah Zazi, 
when he was trained in Afghanistan, came to the United States--
came back to the United States; he grew up in New York--and he 
was going to carry out a liquid explosive attack on the subway 
system. We know here in Virginia, when we had Farooque Ahmed, 
that there was going to be an attack on the D.C. transit 
system. Again, we saw in Madrid, we saw in London. We know how 
this is. It is such a high priority of al-Qaeda.
    The fact, again, you add bin Laden's death, you add 
radicals in this country, you add the fact that there could be 
an overseas attack, what al-Qaeda has done before, no one is 
literally more in the firing line today than those who are 
responsible for the security of our mass transit system.
    So I want to thank you for all the efforts that you have 
made, that you are continuing to make. I assure you that this 
committee, on both sides of the aisle, will work with you. The 
Ranking Member and I, whatever differences we may have on some 
other issues, certainly when it comes to security and when it 
comes to mass transit security, for the most part, we speak 
with one voice.
    So, with that, I thank you for being here today. I look 
forward to the hearing.
    I now recognize the Ranking Member, the gentleman from 
Mississippi, Mr. Thompson.
    Mr. Thompson. Thank you very much, Mr. Chairman.
    I would like to ask unanimous consent that Mr. Green, a 
former Member of this committee, be allowed to sit in for the 
hearing.
    Chairman King. I was going to object, but I can't for my 
good friend, Mr. Green.
    Mr. Thompson. Thank you.
    Thank you for holding today's hearing on surface 
transportation security.
    Thirty-four million people use the Nation's rail and mass 
transit systems each day. Despite this reality and over my 
objections earlier this year, the continuing resolution for 
fiscal year 2011, which was passed by the House, decreased 
discretionary spending for securing those modes of 
transportation by $4.5 million below last year's level, 23 
percent below the President's budget request.
    Under this budget-cutting regime, the transportation 
security program will be reduced by $50 million. While only 
about $1 for each rider, these funds purchase a great deal. 
Transit agencies use this Federal money to hire law enforcement 
officers, acquire bomb-sniffing dogs, and install explosive-
screening devices. They also use this money to finance capital 
projects that keep riders safe, such as hardening tunnels, 
installing surveillance systems, and establishing perimeter 
security controls. This $50 million cut will have an obvious 
and immediate impact on the security of transit riders.
    Unfortunately, Mr. Chairman, this funding cut is not the 
only problem facing the Transportation Security Grant Program. 
In 2009, GAO found that TSA had failed to incorporate 
vulnerability information in the program. Although the 
Department agreed with GAO's recommendation, it has not found a 
way to comply. I hope today, if that compliance exists in this 
information, I would like for the committee to be provided that 
information.
    In 2010, the Department's inspector general found that FEMA 
had failed to develop a process to collect and analyze program 
performance measures for TSGP grants. Without performance 
measures, it is impossible to determine the effectiveness of 
the program and whether the grant programs are achieving risk 
reduction. If performance measures exist, I would like for FEMA 
to provide them to the committee today.
    Taken together, these reports set forth a clear need for 
program reforms that bring about a risk-based and accountable 
system.
    Finally, Mr. Chairman, I look forward to joining with you 
to restore funding to this critical area. I take you at your 
word that we need to do it, and I look forward to doing it, 
especially in the wake of the Osama bin Laden killing. We have 
an obligation to protect mass transit riders, those 34 million 
people who rely on it every day.
    With that, Mr. Chairman, I yield back.
    Chairman King. I thank the gentleman.
    I remind other Members of the committee that opening 
statements may be submitted for the record.
    [The statement of Hon. Richardson follows:]
            Prepared Statement of Honorable Laura Richardson
                              May 4, 2011
    I would like to thank Chairman King and Ranking Member Thompson for 
convening this very important and timely hearing today focusing on the 
protection of our Nation's mass transit system against potential 
terrorist attacks. I would also like to thank our distinguished panel 
of witnesses for appearing before the committee today to discuss what 
progress has been made in this area and what else needs to be done.
    Before I begin, I would like to take a brief moment to recognize 
the recent events that took place over the weekend. As we all know, 
Osama bin Laden, the 9/11 mastermind and leader of al-Qaeda, was 
recently killed in Pakistan by U.S. forces. The precise planning and 
execution that led to the capture and death of Osama bin Laden shows 
that, through our strength and determination, America can step up to 
any challenge. I would like to thank President Obama for his steadfast 
leadership in this effort, as well as our men and women in uniform who 
have fought bravely and sacrificed so much in order for us to finally 
be able to see this day.
    While the death of Osama bin Laden undoubtedly signifies a crushing 
blow to al-Qaeda and its affiliates, they will continue to pose a 
serious threat to us both at home and abroad.
    Nowhere is this threat more serious than to our Nation's mass 
transit systems. Over the last 20 years, al-Qaeda has shown a 
disturbing preference to target mass transit systems around the world. 
From the London subway bombing that killed 52 people in 2005 to the 
Christmas day bomb plot that attempted to blow up Northwest Airlines 
Flight 253, mass transit is a constant target for individuals seeking 
to do America harm.
    Additionally, according to the Department of Homeland Security, the 
number of attacks and attempted attacks against the homeland between 
August 2009 and May 2010 surpassed the number during any previous year 
in our history. These troubling statistics show the increasing 
importance that transportation security will play in our Nation's war 
on terror.
    In protecting against this threat, it is important that we 
understand the unique and complex challenges posed by our Nation's mass 
transit systems. As stated in Mr. Pistole's and Mr. Fugate's submitted 
testimony, ``the characteristics essential to the efficient movement of 
millions of people, i.e. an open architecture connecting large 
populations in major metropolitan areas through multimodal systems 
within multimodal infrastructures--create potential security 
vulnerabilities.'' Thus, in order for us to stay one step ahead of our 
enemies, it is vital that we learn of and protect against these 
vulnerabilities before they can be exploited.
    As the representative of the 37th district of California, I 
understand the importance of securing our Nation's mass transit 
systems. My district is located in Los Angeles County, the largest 
county in the country and home to one of the country's largest metro 
transit systems. Additionally, it contains the Alameda Corridor, a 20-
mile-long rail cargo expressway connecting the ports of Long Beach and 
Los Angeles that runs through Compton's high-threat, high-density urban 
area. These challenges represent a new and emerging need for us to be 
increasingly more vigilant in protecting our Nation's mass transit 
systems against the ever-evolving threat of terrorism.
    I am pleased that Chairman King and Ranking Member Thompson 
convened this hearing because it provides an opportunity for committee 
Members to not only reflect on the enormous gains the Government has 
made with regard to transportation security, but to also understand the 
continuing challenges we face in protecting against terrorist threats. 
I look forward to hearing from our distinguished panel of witnesses on 
these issues. I yield back my time.

    Chairman King. Now I would like to begin the testimony of 
our witnesses today.
    Our first witness is John Pistole, the administrator of the 
Transportation Security Administration. I first worked with Mr. 
Pistole when he was with the FBI, where he did, again, a 
magnificent job on counterterrorism. A dedicated public 
servant. Certainly, he has been no stranger to being on the 
receiving end of attacks from various sources over the last 6 
months in trying to do his job. It goes under the heading of, 
``No good deed goes unpunished,'' but Director Pistole is, 
again, an outstanding American, and we are really privileged to 
have him here today.
    Mr. Pistole, you are recognized for as close to 5 minutes 
as you can.

  STATEMENT OF JOHN S. PISTOLE, ADMINISTRATOR, TRANSPORTATION 
    SECURITY ADMINISTRATION, DEPARTMENT OF HOMELAND SECURITY

    Mr. Pistole. Good morning, Chairman King, and thank you for 
those comments. Ranking Member Thompson, distinguished Members 
of the committee, it is good to be here this morning to discuss 
the efforts of TSA in partnership with FEMA and our many State, 
local, and industry leaders to ensure the best possible mass 
transit and passenger rail security.
    Obviously, the President's Sunday night announcement that 
bin Laden had been located and killed gets to the heart of a 
profound issue. How does it change the threat that we face here 
in the United States, particularly as it relates to mass 
transit?
    Obviously, our efforts to combat terrorism go well beyond 
any one individual, which is why we remain focused on the 
critical mission of protecting the traveling public and our 
transportation systems. TSA will continue to evaluate and 
implement screening measures based on the latest intelligence. 
We ask the traveling public to remain vigilant and report 
immediately any suspicious activity.
    Today, I am here to focus with my fellow witnesses on mass 
transit systems and passenger railroads, which include subways, 
bus transit systems, commuter ferries, Amtrak, commuter 
railroads, among others. These systems are a critical part of 
the transportation network TSA works in partnership to protect. 
They also, unfortunately, remain a target, Mr. Chairman, as you 
noted, having been the focus of numerous plots here in the 
United States--unsuccessful, fortunately--as well as those 
successful attacks you noted overseas and others.
    A critical component of TSA's security efforts for mass 
transit and passenger rail is our partnerships, the 
partnerships we have with industry and local and regional 
stakeholders. The DHS's Transit Security Grant Program is 
currently the primary vehicle providing funding for security 
enhancements to eligible transit agencies supporting State and 
local government initiatives to improve security. We also work 
closely with FEMA to fund projects that most effectively 
mitigate risk at the highest-risk systems. In 2010, DHS 
provided $273.4 million to the transit and passenger rail 
industry, bringing the total to $1.6 billion since 2006.
    In addition to grant funding, TSA supports the security of 
mass transit and passenger rail systems by deploying Visible 
Intermodal Prevention and Response teams, or VIPR teams, to 
augment local security efforts. TSA currently has 25 dedicated 
VIPR teams in operation, in addition to other assets that 
perform VIPR operations. The fiscal 2012 budget request 
includes funding for 12 additional teams.
    VIPR teams work alongside local law enforcement officers 
and are typically compromised of personnel with expertise in 
inspection, behavior detection, security screening, and law 
enforcement for random, unpredictable deployments throughout 
the transportation sector with one goal in mind: To deter 
potential terrorist acts. TSA conducted nearly 8,000 VIPR 
operations in the last year, and I would be glad to get into 
some more detail later on.
    We also perform baseline and collaborative risk assessments 
for mass transit and passenger rail. These assessments are 
conducted with an emphasis on the 100 largest mass transit 
passenger rail systems in terms of passenger volume, which 
collectively account for over 80 percent of all users of public 
transportation.
    Among these assessments is the Baseline Assessment for 
Security Enhancement, or BASE, a comprehensive security 
assessment program designed to evaluate 17 security and 
emergency management action items that form the foundation of 
an effective security program. Through the BASE program, TSA 
reviews security-related proposals jointly developed by us and 
Department of Transportation, the Federal Transit 
Administration, or FTA, and sector partners from mass transit 
and passenger rails. These assessments help inform us as to 
what judgments and actions we should take in partnership. Over 
115 mass transit passenger rail agencies have participated in 
this BASE program.
    We also work with other Federal partners and others in 
terms of other assessments and ways that we can help inform not 
only our use of funds but their use of funds also.
    So, in closing, Chairman King, Ranking Member Thompson, I 
want to thank you for your support and for the support of the 
committee. I look forward to answering your questions.
    Thank you.
    Chairman King. Thank you, Mr. Pistole.
    Our next witness is Craig Fugate, who was the former 
director of the Florida Division of Emergency Management and 
has performed in his current position since May 2009.
    As we all know, the natural disasters which struck the 
southern part of our country in the last several weeks, Mr. 
Fugate has been there, directing operations and serving with 
great distinction.
    I am pleased to recognize the gentleman for 5 minutes.

STATEMENT OF W. CRAIG FUGATE, ADMINISTRATOR, FEDERAL EMERGENCY 
       MANAGEMENT AGENCY, DEPARTMENT OF HOMELAND SECURITY

    Mr. Fugate. Good morning, Chairman King and Ranking Member 
Thompson, Members of the committee. My name is Craig Fugate, 
and I serve as the administrator of FEMA.
    But, also, in full disclosure, I am one of those 34 million 
people that ride mass transit. Most days, I walk to work, but 
when it is inclement weather, I ride the Metro. I ride the 
Metro to go shopping. Oftentimes, my wife and I use Amtrak to 
go home back to Florida. So I am one of the customers who, full 
disclosure, I benefit from a secure mass transit system.
    On behalf of Secretary Napolitano and my partner here from 
TSA, Administrator John Pistole, we work with local and 
providers of mass transit throughout this country, and we look 
at this as a team effort.
    Our job at FEMA is to support DHS overall efforts in the 
safety and security of this Nation and a broad array of 
preparedness grant programs, and today the focus is on the 
Transportation Security Grant Programs. This is a partnership 
where TSA is the subject-matter experts, and we provide the 
grants administration to those programs in working with our 
State and local partners. It is cooperatively managed.
    As Ranking Member Thompson pointed out, the inspector 
general and the General Accounting Office found that we did not 
have procedures in place, we did not have formal agreements 
with TSA to administer this program. I am proud to announce 
that Administrator Pistole and I have signed a memorandum of 
understanding to clearly outline the roles and responsibilities 
as a team so that it is clear when we are working with our 
State and local partners of how we are conducting our business.
    These transportation security grant funds can be used both 
for capital projects--as was pointed out, the physical 
hardening and other enhancements--but also operational 
projects, one of which many people that ride may be familiar 
with, and that is the ``If You See Something, Say Something'' 
campaign, to incorporate and enlist riders of the transit 
systems to report suspicious activity to the law enforcement 
agencies.
    We also provide additional training, exercises, and drills, 
and a visible funding source--or a source for visible law 
enforcement, boots on the ground, such as K-9 and police 
patrols. As Administrator Pistole pointed out, our goal here is 
deterrence. We want to be prepared. We want not just to have to 
be able to respond to these events, but we want to deter the 
threat of terrorists attacking our mass transit systems.
    Again, these programs, as Administrator Pistole pointed 
out, provide funding, but we continue to see the need for these 
programs. We continue to work with our grant programs and our 
applicants.
    I think one of the things that, Mr. Chairman, I know that 
you have expressed concerns about is, in drawing down these 
funds, why do we still see funds that are outstanding versus 
those that are coming down or being drawn down? I think it 
comes back to the type of work we are doing.
    That is, when we are doing capital projects--and as a State 
administrative agency, I can tell you that, in building and 
hardening facilities, that construction and those processes, 
working with State and local governments, will oftentimes take 
more time. It is a drawdown process where we reimburse them for 
the work that is being done. Those that are operational in 
nature tend to be drawn down faster because those are funds 
that are expended for personnel, for training, for exercises.
    So these balances I realize are a concern, but I think they 
are an investment in capitalization of the hardening of these 
facilities that oftentimes take more time than the operational 
projects. It may be showing that, as these funds are still 
there, that they may not be needed. That is not the case. We 
firmly believe that, as our State and local partners are doing 
these capital projects, as they are obligating their funds and 
seeking that reimbursement, these funds are going, as intended 
by Congress, to harden and fortify our mass transit against 
threats.
    Sir, that concludes my statement.
    [The joint statement of Mr. Pistole and Mr. Fugate 
follows:]
      Joint Prepared Statement of John S. Pistole and Craig Fugate
                              May 4, 2011
    Good Morning Chairman King, Ranking Member Thompson, and 
distinguished Members of the committee. I am pleased to appear before 
you today to discuss the efforts of the Transportation Security 
Administration (TSA) and the Federal Emergency Management Agency (FEMA) 
in the mass transit and passenger rail sector.
    The mission of TSA is to protect the Nation's transportation system 
to ensure freedom of movement for people and commerce. Mass transit 
systems and passenger railroads are critical parts of the system that 
TSA is charged with protecting. Together, these systems--which include 
subways, bus transit systems, ferries, the National Railroad Passenger 
Corporation (Amtrak), and commuter railroads, among others--provide 
over 10 billion passenger trips per year.
    In meeting this mission, TSA's goal is to maximize transportation 
security in response to the evolving terrorist threat, while protecting 
passengers' privacy and facilitating the flow of commerce.
    The United States mass transit and passenger rail systems remain a 
target for terrorist groups and have been the subject of numerous plots 
in the United States, as well as attacks overseas. Serving large 
populations in major metropolitan areas, many have substantial 
underground infrastructure, bridges and transportation staging areas, 
or hubs, which can include other forms of transportation. The 
characteristics essential to the efficient movement of millions of 
people--i.e., an open architecture connecting large populations in 
major metropolitan areas through multimodal systems within multimodal 
infrastructures--create potential security vulnerabilities.
             tsa's mass transit and passenger rail programs
    TSA utilizes a number of programs to secure and safeguard mass 
transit and passenger rail operations. In keeping with the themes that 
guided the March 2010 Surface Transportation Security Priority 
Assessment, many of these programs enhance security by addressing 
policy gaps and obstacles, enhancing coordination and unity of effort, 
and maximizing the use of partner strengths and capabilities. TSA 
supports Mission 1--Preventing Terrorism and Enhancing Security--of the 
Quadrennial Homeland Security Review and are aligned with the 
Department of Homeland Security's (DHS) programmatic activities and 
organizational structure as found in the Bottom-Up Review Report of 
July 2010.
    For example, DHS has a comprehensive Transit Security Grant Program 
(TSGP) that provides awards to eligible transit agencies to support 
State and local governments in devising and implementing initiatives to 
improve security. TSA also deploys Visible Intermodal Prevention and 
Response (VIPR) teams in the mass transit and passenger rail domains 
with local law enforcement entities to augment the security protocols 
provided by the local systems. Determinations about where to locate 
resources are based on risk and various mass transit and passenger rail 
assessments. In all of our programs, we are committed to strengthening 
local and State efforts while working collaboratively with our private 
sector partners.
    Collaboration between Federal, State, local, and private entities 
is also demonstrated through the Public Transportation Security Annex 
to the DHS/Department of Transportation (DOT) Memorandum of 
Understanding (MOU) on security. The Annex identifies specific areas of 
coordination among the parties, including citizen awareness, training, 
exercises, risk assessments, and information sharing. To implement the 
Annex, TSA--along with DOT's Federal Transit Administration and the 
FEMA's Grant Programs Directorate--has developed a framework that 
leverages each agency's resources and capabilities. This MOU also 
provides a framework for coordination on programs like safety and 
security roundtables, security standards, training, security data 
collection and analysis, and technical resource documents.
The Transit Security Grant Program (TSGP)
    The TSGP helps create a sustainable, risk-based effort to protect 
critical surface transportation infrastructure and the traveling public 
from acts of terrorism. Eligible agencies are determined by the Urban 
Areas Security Initiative (UASI) urban areas list and the National 
Transit Database based on unlinked passenger trips. The TSGP is 
currently the primary vehicle providing funding assistance for security 
enhancements to eligible domestic mass transit and passenger rail 
agencies and employs risk-based prioritization for funding decisions.
    TSA works with the FEMA Grant Programs Directorate to fund projects 
that most effectively mitigate risks at the highest-risk transit and 
passenger rail properties. In 2010, the TSGP provided $273.4 million to 
the transit and passenger rail industry and a total of $1.6 billion 
since 2006. Similar, but smaller grant programs, have supported over-
the-road bus operations.
            Operational Deterrence Activities
    One very effective and cost-efficient anti-terrorism TSGP effort 
has been in the area of operational deterrence activities. These 
activities include public awareness campaigns, training, drills, and 
exercises. Since fiscal year 2006, the TSGP has awarded approximately 
$175 million for these activities. One of the most well-known campaigns 
is the ``If You See Something, Say Something,'' campaign, which was 
originally implemented by the New York Metropolitan Transportation 
Authority and is a simple and effective way to raise public awareness 
of indicators of terrorism, crime, and other threats and emphasize the 
importance of reporting suspicious activity to the proper 
transportation and law enforcement authorities.
            Anti-Terrorism Transit and Passenger Rail Activities
    Additional TSGP funding has supported non-Federal law enforcement 
positions for anti-terrorism activities. Since fiscal year 2006, DHS 
has awarded $29.7 million for 60 canine teams and $93.9 million for 304 
officers to create 77 anti-terrorism teams. These officers enhance 
security, provide a visible deterrent and augment our nimble, risk-
based approach to provide assistance where it can best be put to use. 
The TSGP also provides funds for transit, passenger rail, and law 
enforcement agencies to hire non-Federal officers to serve as mobile 
explosives detection screeners. The officers for each of these teams 
are direct employees of the transit system/passenger rail/law 
enforcement agency, and they are deployed according to security needs 
within the local transit or passenger rail system.
            Critical Infrastructure Protection Activities
    Transit security grants have also been used for critical 
infrastructure protection activities. These activities include 
intrusion detection, physical hardening, and surveillance measures for 
underwater tunnels, bridges, and multi-user high-volume stations. Since 
fiscal year 2006, the TSGP has funded $155.2 million for underwater 
tunnel hardening, $168.5 million for critical station physical security 
measures such as perimeter protection and closed circuit television 
(CCTV), and over $28 million for suspension bridge hardening.
    In support of the TSGP, DHS has identified those assets it 
considers Nationally critical to surface transportation. These assets 
were then analyzed based on threats, vulnerabilities, and consequences 
by both Government and industry stakeholders to guide our risk-based 
assessment of high priority transit and passenger rail assets.
    The budget bill passed by Congress last month for fiscal year 2011 
provides $250 million in funding for public transportation security 
assistance and railroad security assistance. Included in this amount is 
a 5.8 percent (or $14.5 million) allowance for the FEMA Management and 
Administration (M&A), $20 million for Amtrak, and $5 million for 
Intercity Bus. TSA will dedicate $10 million for freight rail security, 
leaving $200.5 million for the TSGP.
Mass Transit and Passenger Rail Assessments
    By performing baseline and collaborative risk assessments in the 
mass transit and passenger rail domains, TSA is able to engage State 
and local partners on how to reduce vulnerabilities, assess risk, and 
improve security efforts. These assessments are conducted with emphasis 
on the 100 largest mass transit and passenger rail systems in terms of 
passenger volume, which collectively account for over 80 percent of all 
users of public transportation.
            Transportation Systems Sector Risk Assessment
    Through the Transportation Systems Sector Risk Assessment, TSA 
evaluates threat, vulnerability, and consequence in a wide range of 
terrorist attack scenarios for each mode of transportation. For mass 
transit and passenger rail, this assessment considered more than 200 
scenarios, rating threat capabilities and likelihood of execution; 
vulnerabilities of rail and bus systems and infrastructure; and 
potential consequences in casualties, property damage, and impacts on 
the transportation network. The resulting risk ranking enables TSA to 
set informed mitigation priorities, both across the sector and by 
individual mode, for collaborative security strategies, program 
development, and resource allocations.
            Baseline Assessment for Security Enhancement
    The Baseline Assessment for Security Enhancement (BASE) is a 
comprehensive security assessment program designed to evaluate 17 
Security and Emergency Management Action Items that form the foundation 
of an effective security program. Through the BASE program, TSA reviews 
security-related proposals jointly developed by TSA, the Department of 
Transportation's Federal Transit Administration (FTA), and sector 
partners from mass transit and passenger rail systems. The security 
action items represent a comprehensive update of the Security Program 
Actions for Mass Transit Agencies that FTA developed following the 
attacks of September 11, 2001.
    The assessment results provide critical data about security 
priorities, the development of security enhancement programs, the 
allocation of resources (including security grants), and a compilation 
of the most effective security practices for mass transit and passenger 
rail agencies. Over 115 mass transit/passenger rail agencies have 
undertaken the BASE assessment.
    BASE is intended to elevate the security posture and readiness 
throughout the mass transit and passenger rail mode by implementing and 
sustaining baseline security measures applicable to the operating 
environment and characteristics of mass transit and passenger rail 
systems. TSA implements this continuous improvement process through its 
Transportation Security Inspectors--Surface (TSI-S), who conduct the 
assessments in partnership with the mass transit and passenger rail 
agencies' security chiefs and directors. These evaluations have 
significantly contributed to an elevation in the mass transit security 
posture.
            Collaborative Risk Assessment Initiatives
    TSA is developing and fielding a risk assessment capability focused 
on individual mass transit and passenger rail agencies, their regional 
security partners, and connecting and adjoining transportation systems. 
This effort aims to produce several risk and vulnerability assessment 
tools integrated into a single platform to enable TSA and its component 
security partners in DHS to conduct joint assessments of mass transit 
and passenger rail agencies, employing resources more efficiently, and 
improving the audit process.
            visible intermodal prevention and response team
    TSA currently has 25 Visible Intermodal Prevention and Response 
(VIPR) multi-modal teams in operation and the fiscal year 2012 budget 
request includes funding for 12 additional VIPR teams. VIPR teams are 
comprised of personnel with expertise in inspection, behavior 
detection, security screening, and law enforcement for random, 
unpredictable deployments throughout the transportation sector to deter 
potential terrorist acts. TSA's VIPR teams work alongside local law 
enforcement agencies throughout the transportation domain, enhancing 
the agency's ability to leverage a variety of resources quickly to 
increase security in any mode of transportation anywhere in the 
country. VIPR teams also represent an on-going effort to develop surge 
capacity to enhance security in public transportation systems. TSA 
conducted over 8,000 VIPR operations in the past 12 months, including 
over 3,700 operations in mass transit venues. VIPR operational plans 
are developed with a risk-based methodology, in conjunction with local 
transportation security stakeholders, and conducted jointly by TSA, 
local law enforcement, and transportation security resources.
    To enhance coordination and deterrent effects of VIPR team 
operations, TSA and the representatives of the Transit Policing and 
Security Peer Advisory Group (PAG) work together to improve 
coordination, preparation, planning, execution, and after-action review 
of VIPR deployments in mass transit and passenger rail systems. This 
cooperation has grown since the mutually agreed upon operating 
guidelines for ``Effective Employment of Visible Intermodal Prevention 
and Response Teams in Mass Transit and Passenger Rail'' were 
implemented in October 2007. The guidelines were distributed to Federal 
Security Directors (FSDs), lead regional Surface Inspectors, and 
Federal Air Marshal Supervisory Air Marshal in Charge (FAM SACs) around 
the country to improve the effectiveness of the VIPR program.
     collaboration and communication with state, local, and tribal 
                   authorities and the private sector
    TSA works with DOT's FTA and the Federal Railroad Administration, 
trade groups representing mass transit and passenger rail interests, 
and the transit and passenger rail agencies to improve security. 
Through the National Infrastructure Protection Plan partnership model, 
TSA chairs the Government Coordinating Council, and regularly consults 
with the Sector Coordinating Council. To a large degree, TSA's role is 
to empower our State and local partners through training and exercise 
programs like the Intermodal Security Training and Exercise Program (I-
STEP) and grant programs like TSGP.
    Proactive and continuous collaboration is crucial for the success 
of mass transit and passenger rail security operations. TSA 
collaborates with senior executives, law enforcement chiefs, and 
security managers for mass transit and passenger rail agencies; State, 
local, and Tribal officials; emergency responders; and Federal partners 
to foster regional security coordination and to integrate the spectrum 
of available resources for enhanced deterrent and response 
capabilities.
    Meetings take place regularly with these key officials through such 
collaborative forums as the Mass Transit Sector Coordinating Council, 
the Transit Policing and Security Police Advisory Group, and the 
Regional Transit Security Working Groups in higher risk areas, and the 
annual Transit Safety and Security Roundtables that bring together the 
law enforcement chiefs, security directors, and safety officers of the 
Nation's 60 largest mass transit and passenger rail agencies with their 
Federal security partners to discuss specific terrorism prevention and 
response challenges and collaborate in advancing effective solutions. 
These efforts aim to ensure coordinated development and implementation 
of effective security strategies Nationally and to build collaborative 
regional networks that expand capabilities to prevent acts of 
terrorism, to increase resiliency, and to respond to and recover from 
threats and security incidents.
            Sharing Security Information
    In collaboration with the U.S. Department of Justice and Amtrak, 
TSA announced a significant step toward enhancing the security of the 
Nation's rail infrastructure with the implementation of a Nation-wide 
Suspicious Activity Reporting (SAR) capability throughout the entire 
Amtrak rail system in 2010. The SAR initiative is a partnership among 
Federal, State, and local law enforcement to establish a standard 
process for law enforcement to identify and report suspicious incidents 
or activity and share that information Nationally so it can be analyzed 
to identify broader trends. Under this collaborative program, Amtrak 
officers are also utilizing an upgraded reporting system--made 
available by TSA--to refer suspicious activity reports to DHS and the 
Federal Bureau of Investigation (FBI) for analysis and follow-up.
    TSA also provides timely, accurate intelligence and security 
information to mass transit and passenger rail agency officials through 
joint DHS Office of Intelligence and Analysis, TSA Office of 
Intelligence (TSA-OI), and FBI classified intelligence and analysis 
briefings. Briefings are provided to mass transit and passenger rail 
security directors and law enforcement chiefs in major metropolitan 
areas, as well as Amtrak, through the Joint Terrorism Task Force 
network's secure video teleconferencing system.
    TSA Mass Transit Security Awareness Messages provide intelligence 
products to mass transit and passenger rail security and management 
officials and State and local partners. TSA is constantly working with 
our partners to enhance the scope, accuracy, timeliness, and efficiency 
of information sharing to develop a unified, comprehensive intelligence 
and security information-sharing platform for the mode, with reports 
and other materials on security technologies as an essential component.
    Mr. Chairman and Ranking Member Thompson, I thank you for the 
opportunity to appear before you today and I look forward to answering 
your questions.

    Chairman King. Thank you, Mr. Fugate.
    Our next witness is Commissioner Richard Daddario of the 
NYPD.
    Commissioner Daddario had a long record in the Justice 
Department as a prosecutor, attorney on jury trials, arguing 
appeals, and, most recently, prior to joining the NYPD, was the 
Department of Justice's attache in Moscow.
    If I may say, on a semi-humorous note, Commissioner 
Daddario, as I look at people from other parts of the country, 
if I did not pronounce your name first, I just tremble at the 
thought of how it would be pronounced by some of the people 
from other parts of the country who are not used to the ethnic 
names we have in New York.
    So, Commissioner Daddario, you are recognized for 5 
minutes.

    STATEMENT OF RICHARD DADDARIO, DEPUTY COMMISSIONER FOR 
       COUNTERTERRORISM, NEW YORK CITY POLICE DEPARTMENT

    Mr. Daddario. Good morning, Mr. Chairman, Congressman 
Thompson, and Members of the committee. Thank you for this 
opportunity to represent the New York City Police Department at 
this hearing on the subject of mass transit security.
    Each year, more than a billion and a half people use the 
New York City rail transit system, our subway. It is an old 
system along and around which the city grew. The life of the 
city depends on it. The Metropolitan Transportation Authority 
takes care of the subway system's nuts and bolts, but the NYPD 
has the job of keeping the people who ride the train safe. 
Terrorism has made that job harder.
    Under Police Commissioner Raymond Kelly's leadership over 
the past 10 years, the NYPD has found ways to reduce crimes 
city-wide to levels that few believed possible. But the 
possibility of a terror attack in the subway has required the 
NYPD to commit enormous resources to safeguard the public. More 
than 2,500 police officers are assigned to the Transit Bureau, 
most of whom have received specialized training to recognize 
and respond to a terrorist plot. In addition, approximately 
another 1,000 officers are dedicated to the Department's 
counterterrorism mission.
    The NYPD has also acquired advanced equipment to detect 
explosives and radiation sources and has begun connecting 
cameras in the subway system to the Department's Domain 
Awareness System, which integrates public- and private-sector 
security cameras, license plate readers, radiation detectors, 
and other data.
    The NYPD also conducts daily, highly visible 
counterterrorism deployments in the subway system, including 
random bag checks and ``Torch'' deployments consisting of 
emergency service unit officers with heavy weapons and tactical 
gear, K-9 officers, and detectives from the NYPD Intelligence 
Division. All of this is necessary.
    Post-9/11, hundreds of acts of terrorism have been directed 
at transit systems around the world, including in London, 
Moscow, Madrid, and, most recently, Minsk. In New York City, 
plots have been directed at the PATH and subway systems, but 
the transit system has been kept safe due to Commissioner 
Kelly's intelligent and strategic commitment of police 
resources to its protection.
    The NYPD could not have accomplished so much without the 
support of Congress and the Department of Homeland Security, 
especially through the Transit Security Grant Program. Transit 
security grants have supported the development of the Domain 
Awareness System, which will be integral to the protection of 
the transit hub at the new World Trade Center now rapidly 
taking shape. They have also supported essential training for 
officers working in the subway system, paid for equipment, and 
helped cover the cost of their deployment. Transit security 
grants express a commitment on the part of the Federal 
Government to protect not only the trains and rails and the 
stations that rise above them, but also the people who ride 
those trains.
    DHS has always recognized that New York City is at the top 
of the target list for al-Qaeda and its affiliates, and it has 
supported the NYPD's strategy that combines technology and 
operational programs to protect the entire transit system. 
Funding to support operations makes this strategy possible.
    However, current legislation points to the implementing 
recommendations of the 9/11 Act, which set a cap on operational 
funds of 10 percent in 2011. However, I understand that the 9/
11 Act contemplated an accompanying increase in funding of more 
than 70 percent between 2008 and 2011. That increase has not 
been realized. In fact, authorized funding has decreased by 
more than 30 percent since 2008.
    Accepting the fiscal year 2011 appropriation of $250 
million for the transit security grants, less than $25 million 
would be available Nationally this year for vital operational 
programs, like those the NYPD employs, if the 10 percent cap 
was imposed. In contrast, $51 million was allocated last year 
to fund operational programs.
    Clearly, funding for capital improvements to enhance 
security makes good sense, but the right balance between 
capital and operations is important.
    New York City's subway system is the fifth largest in the 
world by ridership and the largest in the Western Hemisphere. 
The NYPD is responsible for its safety and has worked long and 
hard to find a strategy that works. That strategy demands the 
extensive commitment of police officers on the platforms, in 
the stations, and around the station entrances. That requires 
sustained operational funding.
    Again, thank you for inviting me to today's hearing, and I 
will do my best to answer any questions you may have.
    [The statement of Mr. Daddario follows:]
                 Prepared Statement of Richard Daddario
                              May 4, 2011
    Good morning Mr. Chairman, Congressman Thompson, and Members of the 
committee. Thank you for this opportunity to represent the New York 
City Police Department at this hearing on the subject of mass transit 
security.
    Each year, more than a billion and a half people use the New York 
City rail transit system--our subway. It is an old system along and 
around which the city grew. The life of the city depends on it.
    The Metropolitan Transportation Authority takes care of the subway 
system's nuts and bolts, but the NYPD has the job of keeping the people 
who ride the trains safe. Terrorism has made that job harder. Under 
Police Commissioner Raymond Kelly's leadership over the past 10 years, 
the NYPD has found ways to reduce crime city-wide to levels that few 
believed possible. Last year, no more than 6 felonies were committed 
daily in a system with 468 stations, several hundred miles of track, 
and 5 million riders per weekday. But the possibility of a terror 
attack in the subway has required the NYPD to commit enormous resources 
to safeguard the public.
    More than 2,500 police officers are assigned to the Transit Bureau, 
most of whom have received specialized training to recognize and 
respond to a terrorist plot. In addition, approximately another 1,000 
officers are dedicated to the Department's counterterrorism mission. 
The NYPD has also acquired advanced equipment to detect explosives and 
radiation sources and has begun connecting cameras in the subway system 
to the Department's Domain Awareness System, which integrates public- 
and private-sector security cameras, license plate readers, radiation 
detectors, and other data.
    The NYPD also conducts daily, highly-visible counterterrorism 
deployments in the subway system, including: Random bag checks; and 
Transit Operational Response Canine Heavy Weapons deployments, more 
simply called TORCH, consisting of Emergency Services Unit officers 
with heavy weapons and tactical gear, canine officers, and detectives 
from the NYPD Intelligence Division.
    All this is necessary. Post-9/11, hundreds of acts of terrorism 
have been directed at transit systems around the world, including in 
London, Moscow, Madrid, and most recently, Minsk. In New York City, 
plots have been directed at the PATH and subway systems. But the 
transit system has been kept safe due to Commissioner Kelly's 
intelligent and strategic commitment of police resources to its 
protection.
    The NYPD could not have accomplished so much without the support of 
Congress and the Department of Homeland Security, especially though the 
Transit Security Grant Program. Transit Security grants have supported 
the development of the Domain Awareness System, which will be integral 
to the protection of the transit hub at the new World Trade Center now 
rapidly taking shape. They have also supported essential training for 
officers working in the subway system, paid for equipment, and helped 
cover the cost of their deployment. Transit Security grants express a 
commitment on the part of the Federal Government to protect not only 
the trains and rails, and the stations that rise above them, but also 
the people who ride those trains.
    DHS has always recognized that New York City is at the top of the 
target list for al-Qaeda and its affiliates, and it has supported the 
NYPD's strategy that combines technology and operational programs to 
protect the entire transit system. Funding to support operations makes 
this strategy possible. However, current legislation points to the 
Implementing Recommendations of the 9/11 Act, which set a cap on 
operational funds of 10 percent in 2011. However, I understand that the 
9/11 Act contemplated an accompanying increase in funding of more than 
70 percent between 2008 and 2011. That increase has not been realized. 
In fact, authorized funding has decreased by more than 30 percent since 
2008.
    Accepting the fiscal year 2011 appropriation of $250 million for 
the TSGP, less than $25 million would be available Nationally this year 
for vital operational programs like those the NYPD employs if the 10 
percent cap was imposed. In contrast, $51 million was allocated last 
year to fund operational programs. Clearly, funding for capital 
improvements to enhance security makes good sense, but the right 
balance between capital and operations is important.
    New York City's subway system is the fifth-largest in the world by 
ridership and the largest in the western hemisphere. The NYPD is 
responsible for its safety and has worked long and hard to find a 
strategy that works. That strategy demands the extensive commitment of 
police officers on the platforms, in the stations and around the 
station entrances, and that requires sustained operational funding.
    Thank you again for inviting me to today's hearing. I will do my 
best to answer any questions you may have.

    Chairman King. Thank you, Commissioner.
    Our next witness is president Richard Rodriguez, who is 
president of the Chicago Transit Authority.
    Prior to joining the CTA, Mr. Rodriguez served as the 
commissioner of the Chicago Department of Aviation and has a 
long and distinguished career in various levels of Chicago 
government.
    With that, Mr. Rodriguez, I am pleased to recognize you for 
5 minutes.

 STATEMENT OF RICHARD L. RODRIGUEZ, PRESIDENT, CHICAGO TRANSIT 
                           AUTHORITY

    Mr. Rodriguez. Thank you very much, Chairman King, Ranking 
Member Thompson, Representatives Davis and Walsh from my home 
State of Illinois, and Members of the committee. I thank you 
for the opportunity to testify today on behalf of the Chicago 
Transit Authority, commonly known as the CTA.
    CTA provides 1.7 million trips each weekday on our bus and 
rail network, including the ``L,'' or elevated, rail service 
that has come to symbolize Chicago transit. As the second-
largest transit agency in the Nation, Chicago Transit Authority 
continually examines ways to enhance measures for the safety 
and security of our customers and employees. We focus on three 
key areas: Infrastructure improvements, emergency 
communications and coordination, and operational security.
    I am proud to report that, in March of this year, the CTA 
was recognized by the Department of Homeland Security for 
achieving high scores in all categories of the security 
inspection program for transit. The Baseline Assessment for 
Security Enhancement, also known as BASE, was developed as a 
comprehensive review of security programs and focuses on 17 
categories identified by the transit community as fundamental 
for a sound transit security program. These categories include: 
Security program management and accountability; security and 
emergency response training, drills, and exercises; public 
awareness; protective measures for DHS threat levels; physical 
security; personnel security; and information sharing and 
security. Our system received high scores across all BASE 
categories, which very few transit systems have achieved.
    Since 2006, grants from the Department of Homeland Security 
have been solely responsible for allowing CTA to make 
significant technology upgrades to the security and 
surveillance network, add the necessary security personnel, and 
enrich training programs for these individuals so they are 
ready to handle the situations that may pose a threat to our 
system.
    Our latest infrastructure initiative to combat crime and 
deter terrorism is the installation of high-resolution digital 
security cameras. DHS funding is being used to equip all 144 of 
our CTA rail stations with multiple cameras at each station. 
The networked camera allow CTA, the Chicago Police Department, 
Chicago's Office of Emergency Management and Communication to 
gain a clear picture of an emergency situation and respond 
accordingly.
    We are also planning on retrofitting CTA's railcar fleet 
with security cameras. There are new railcars on order that 
will come equipped with cameras, but we feel it is critical to 
have the entire fleet be retrofitted. All buses in our fleet, 
over 1,700 of them, have been equipped with cameras since 2003.
    In recent years, the Transportation Security Administration 
has provided additional resources in the form of Visible 
Intermodal Prevention and Response, or VIPR teams, as they are 
commonly known, which are deployed at airports and on transit. 
They provide a random, unannounced, highly visible, 
supplemental security presence.
    CTA has also received dogs from the TSA's Explosive 
Detection K-9 Team. The K-9s are funded through DHS and are 
part of the Chicago Police Department's transportation section. 
The dogs are paired with handlers to detect explosives and are 
used to respond to reports of unattended or suspicious items. 
These dogs are trained to find improvised explosive devices and 
are used on trains, buses, platforms, and stations.
    DHS funding has allowed CTA to fully leverage technology to 
enhance security, but the human element is still critical. 
Training for employees and encouraging our riders to be part of 
the security presence is always an important part of our 
efforts. The FTA has launched a Nation-wide safety and security 
awareness program called Transit Watch, which encourages 
transit passengers and employees to report anything suspicious 
or dangerous.
    CTA's ``See Something, Say Something'' campaign is similar 
to the Transit Watch program and provides information and 
instructions to transit passengers and employees so they know 
what to do and whom to contact in the event of an emergency. 
This campaign was borrowed from the MTA in 2002 and encourages 
riders to report any suspicious activity that they observe.
    In addition, CTA has participated and continues to 
participate in training for a number of scenarios using a range 
of programs. We have increased the frequency of our system 
checks, tightened access, and continually train our operations, 
facilities, and maintenance employees to recognize suspicious 
activity, packages, or substances.
    CTA participates in drills involving the Chicago Police 
Department, Chicago Fire Department, Office of Emergency 
Management and Communications, and other agencies regarding 
bomb threats, fires, and HAZMAT situations.
    For everything that I have mentioned, DHS funding has been 
the resource that has made these measures possible. Without 
that funding, none of these efforts could continue. Neither the 
State of Illinois, the city of Chicago, or CTA has the 
financial resources to support these efforts.
    Unfortunately, Congress, as was mentioned, was recently 
forced to tighten its fiscal belt, and the FEMA Transit 
Security grants took a one-sixth cut to its fiscal year 2011 
budget, from $300 million to $250 million. In fiscal year 2010, 
CTA was awarded $6.8 million under this program to install 
security cameras on 400 railcars. The CTA planned to use fiscal 
year 2011 funding to complete the camera retrofit of the 
remainder of our legacy railcars in 2013, but the 16 percent 
cut will likely force the CTA to finish installing these 
important cameras in 2014 or 2015 at the earliest.
    Before I close, I would be remiss if I didn't state how a 
heightened state of alert impacts agencies like the CTA. CTA 
actively monitors terrorism-related threats, incidents, and 
events locally, Nationally, and internationally. When 
circumstances warrant, the CTA takes a number of steps to 
ensure our employees and customers remain vigilant. Steps 
include communicating with our Federal, State, and local 
partners; reissuing security bulletins to remind employees of 
what activities to look for and what steps to take should they 
encounter any suspicious or criminal activity during the course 
of their duties; and reminding our customers that vigilance and 
awareness of their surroundings is an important part of our 
safety efforts and encouraging them to report any unusual or 
suspicious activity to 9-1-1 or to CTA personnel.
    Transit systems across our country are inherently open 
environments, designed to move people quickly to their 
destinations. At the CTA, we are determined to make our system 
as safe and user-friendly as possible and to continue providing 
ready transportation consistent with a commitment to safety.
    Thank you again, Mr. Chairman, for the opportunity to 
testify at this hearing. As the others on the panel, I make 
myself available for any questions you may have.
    [The statement of Mr. Rodriguez follows:]
               Prepared Statement of Richard L. Rodriguez
                              May 4, 2011
    Chairman King, Ranking Member Thompson, and Members of the 
committee, I thank you for the opportunity to testify today on behalf 
of the Chicago Transit Authority, commonly known as the CTA. I also 
would like to acknowledge my two home-State Congressmen on the 
Committee, Representatives Danny Davis and Joe Walsh. Accompanying me 
today is CTA's Chief Safety & Security Officer, Amy Kovalan.
    The CTA provides 1.7 million trips each weekday on our bus and rail 
network, including the ``L'' or ``elevated'' rail service that has come 
to symbolize Chicago transit. As the second largest transit agency in 
the Nation, the Chicago Transit Authority continually examines ways to 
enhance measures for the safety and security of our customers and 
employees. We focus on three key areas: Infrastructure improvements, 
emergency communications, and coordination and operational security.
    I am proud to report that in March of this year the CTA was 
recognized by the Department of Homeland Security for achieving high 
scores in all categories of the security inspection program for 
transit. The Baseline Assessment for Security Enhancement, also known 
as BASE, was developed as a comprehensive review of security programs 
and focuses on 17 categories identified by the transit community as 
fundamental for a sound transit security program.
    These categories include--
  <bullet> security program management and accountability,
  <bullet> security and emergency response training, drills, and 
        exercises,
  <bullet> public awareness,
  <bullet> protective measures for DHS threat levels,
  <bullet> physical security,
  <bullet> personnel security,
  <bullet> and information sharing and security.
    Our system received high scores across all BASE categories, which 
very few transit systems have achieved.
    Since 2006, grants from the Department of Homeland Security have 
been solely responsible for allowing CTA to make significant technology 
upgrades to the security and surveillance network, add the necessary 
security personnel, and enrich training programs for these individuals 
so they are ready to handle situations that may pose a threat to our 
system.
    Our latest infrastructure initiative to combat crime and deter 
terrorism is the installation of high-resolution digital security 
cameras. DHS funding is being used to equip all 144 CTA rail stations 
with multiple cameras. The networked cameras allow CTA, the Chicago 
Police Department, and Chicago's Office of Emergency Management and 
Communication to gain a clearer picture of an emergency situation and 
respond accordingly.
    We are also planning on retrofitting CTA's rail car fleet with 
security cameras. There are new rail cars on order that will come 
equipped with cameras, but we feel it is critical to have the entire 
fleet be outfitted. All buses in our fleet have been equipped with 
cameras since 2003.
    In recent years the Transportation Security Administration has 
provided additional resources in the form of Visible Intermodal 
Prevention and Response or VIPR teams, which are deployed at airports 
and on transit. They provide a random, unannounced, highly-visible 
supplemental security presence.
    CTA has also received dogs from the TSA's Explosive Detection 
Canine Team Program. The K-9s are funded through DHS and are part of 
the Chicago Police Department's Transportation Section.
    The dogs are paired with handlers to detect explosives and are used 
to respond to reports of unattended or suspicious items. These dogs are 
trained to find improvised explosive devices and are used on trains, 
buses, platforms, and stations.
    DHS funding has allowed CTA to fully leverage technology to enhance 
security, but the human element is still critical. Training for 
employees and encouraging our riders to be part of the security 
presence is an important part of our efforts.
    The FTA has launched a Nation-wide safety and security awareness 
program--called Transit Watch--which encourages transit passengers and 
employees to report anything suspicious or dangerous.
    The CTA's ``See Something-Say Something'' campaign is similar to 
the Transit Watch program and provides information and instructions to 
transit passengers and employees so that they know what to do and whom 
to contact in the event of an emergency. This campaign was borrowed 
from the MTA in 2002 and encourages riders to report any suspicious 
activity they observe.
    In addition, CTA has participated and continues to participate in 
training for a number of scenarios using a range of programs. We have 
increased the frequency of our system checks, tightened access, and 
continually train our operations, facilities, and maintenance employees 
to recognize suspicious activity, packages, or substances. CTA 
participates in drills involving the Chicago Police Department, Chicago 
Fire Department, OEMC and other agencies regarding bomb threats, fires, 
and HAZMAT situations.
    For everything I have mentioned, DHS funding has been the resource 
that has made these measures possible. Without that funding, none of 
these efforts could continue. Neither the State of Illinois, city of 
Chicago, or CTA has the financial resources to support these efforts.
    Unfortunately, Congress was recently forced to tighten its fiscal 
belt, and the FEMA Transit Security grants that the CTA receives 
annually took a one-sixth cut to its fiscal year 2011 budget--from $300 
million to $250 million. Last year the CTA received $6.8 million under 
this program, and the CTA will put the money to good use to install 
security cameras on 400 rail cars this year. The CTA had planned to use 
future funds to install cameras on the rest of its rail cars in 2012, 
but the 16 percent cut will likely force the CTA to finish installing 
these important cameras in 2013 or 2014 at the earliest.
    Before I close, I would be remiss if I didn't comment on the good 
news that President Obama announced late Sunday night, and how a 
subsequent heightened state of alert impacts agencies like the CTA. The 
CTA actively monitors terrorism-related threats, incidents, and events 
locally, Nationally, and internationally. When circumstances warrant, 
such as the death of Osama bin Laden, the CTA takes a number of steps 
of steps to ensure our employees and customers remain vigilant.
    Steps include communicating with our Federal, State, and local 
partners; re-issuing security bulletins to remind employees of what 
activities to look for and what steps to take should they encounter any 
suspicious or criminal activity during the course of their duties; and 
reminding our customers that vigilance and awareness of their 
surroundings is an important part of our safety efforts and encouraging 
them to report any unusual or suspicious activity to 9-1-1 or to CTA 
personnel.
    In a free country, there is no such thing as a closed and perfect 
system. Transit systems across the country are inherently open 
environments designed to move people quickly to their destinations. It 
is a careful balance to strike between security and personal mobility 
but we feel that we have found a good balance. We are determined to 
make our system as safe and user-friendly as possible, and to provide 
ready transportation consistent with the commitment to safety.
    Thank you again, Mr. Chairman, for the opportunity to testify here 
today. I will be happy to answer any questions from you or the other 
distinguished Members of the committee. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman King. Thank you very much, Mr. Rodriguez.
    Our next witness is Deputy Chief Daniel Hartwig of the Bay 
Area Rapid Transit.
    Chief Hartwig was just appointed to his position, I 
believe, about 6 weeks ago, and I congratulate you on that. It 
comes after 29 years of service with BART. I want to thank you 
for your service.
    I now am pleased to recognize you for as close to 5 minutes 
as you can be. Thank you very much.

  STATEMENT OF DANIEL O. HARTWIG, DEPUTY CHIEF OF OPERATIONS, 
 BART POLICE DEPARTMENT, SAN FRANCISCO BAY AREA RAPID TRANSIT 
                             (BART)

    Mr. Hartwig. Good morning, Chairman King, Ranking Member 
Thompson, and Members of the committee. My name is Dan Hartwig, 
and I am the deputy chief of police of operations at the San 
Francisco Bay Area Rapid Transit District Police Department, 
also known as BART.
    On behalf of BART's board of directors, our 3,500 
employees, and our 350,000 daily riders, I appreciate the 
opportunity to be given the chance to testify before you today.
    BART's role as a backbone of the region's transportation 
network is borne out both by what happens on a normal day and 
by what happens when circumstances are atypical. A normal 
weekday for BART means providing on-time service for about 
350,000 Bay-area residents across 105 miles of trackway, 44 
stations, in 4 counties and 26 cities. Most often, as a law 
enforcement agency, we provide a safe and secure environment 
for those within our system.
    The most recent atypical day we experienced was November 3, 
2010, when the BART system carried 522,200 customers to the San 
Francisco Giants World Series Championship victory parade. The 
presence of large crowds traveling through the BART facilities 
for special events, such as the Giants celebration, presents a 
predictable, target-rich environment for terrorist attacks and 
magnifies the risk and consequence of a terror attack that 
transit systems face daily.
    The attack in Madrid, Spain, on March 11, 2004; the attacks 
on London, England, on July 7 and 21, 2005; and the attack in 
Mumbai, India, on November 26, 2008, illustrates with alarming 
clarity the vulnerability of public transit facilities.
    The United States Department of Homeland Security warns 
that the Nation's mass transit systems, which are considered to 
be a part of America's critical infrastructure, are at high 
risk of being targeted by terrorists for mass casualty attacks.
    Soon after September 11, BART's administration aggressively 
focused upon identifying targets vulnerable to acts of 
terrorism in the BART system. After completing four threat and 
vulnerability assessments with three Government agencies and 
one private security firm, early on BART identified a need to 
complete an estimated $250 million in security projects. 
Recognizing its most critical and vulnerable asset, BART 
immediately invested capital funds to begin the hardening 
process.
    On Friday, July 8, 2005, representatives from TSA knocked 
on BART's door, offering partnership and support in the wake of 
the tragic attack on London's transportation systems, thus 
beginning our partnership that continues to this day. Beginning 
in 2003 and continuing through 2005, Urban Area Security 
Initiative dollars helped to fund the specific projects to 
further harden the critical infrastructure within the BART 
system.
    Receiving Transit Security Grant Program funds in 2006 
through 2010 has allowed for the expansion of these security 
projects to address the identified security needs of other 
vulnerable critical assets. Today, we continue to use Transit 
Security Grant Program funds, as well as other local, State, 
and Federal funds, to strategically and methodically eliminate 
identified vulnerabilities from the previously mentioned threat 
and vulnerability assessments.
    The engineering challenges to protect and mitigate the 
effects of a terrorist attack have been greater than originally 
imagined. Understanding the required expertise needed, we have 
and continue to rely upon the Department of Homeland Security 
and the Transportation Security Administration for support and 
direction. Without their unwavering commitment to BART 
specifically and to our allied transportation systems, our 
ability to achieve success would be extremely limited.
    Due to the environment in which our system is located, the 
complexity of security projects has exceeded our local 
resources, and it is the support from DHS and TSA that enables 
us to move these security projects forward.
    As for passenger screening, from the beginning it was clear 
that post-9/11 security measures that were developed for 
airports would not work in the subway systems for America. BART 
is the Bay Area Rapid Transit, and if we lose the ``rapid,'' we 
cease to serve our customers and the region. Although BART is a 
fairly new system, our infrastructure was not designed to 
accommodate the space and equipment required to screen large 
numbers of passengers. Current technology cannot process large 
numbers of passengers quickly enough for the mass transit 
environment.
    Further proof of the success brought to BART by DHS and TSA 
are the following projects and programs: Financial support for 
major capital projects to harden BART's critical 
infrastructure; TSA explosive K-9s; Operational Pack funding 
for our Critical Asset Patrol Team assigned to our critical 
asset corridor; training for BART's front-line employees on 
terrorism awareness and identification; VIPR teams partnering 
with BART police officers to patrol critical assets and special 
events; RailSafe, linking transit agencies across the country 
at the same date and time, focusing on high visibility within 
transit properties.
    I would implore to you today, the funding source for 
transportation agencies to solidify their properties is needed 
now more than ever. We have failed in the past to pay close 
attention to a threat that we considered to be foreign. We now 
know the same threat exists within our own homeland. As we 
approach the 10th anniversary of the 9/11 attacks, we cannot 
allow complacency to undermine our efforts to keep America 
secure.
    Chairman King, Ranking Member Thompson, and Members of the 
committee, on behalf of BART Police Chief Kenton Rainey and the 
San Francisco Bay Area Rapid Transit District, thank you for 
inviting me to testify today. I am also willing to answer any 
questions.
    [The statement of Mr. Hartwig follows:]
                Prepared Statement of Daniel O. Hartwig
                              May 4, 2011
    Good morning, Chairman King, Ranking Member Thompson and Members of 
the Committee on Homeland Security. My name is Dan Hartwig and I am a 
Deputy Chief of Police for Operations at the San Francisco Bay Area 
Rapid Transit District Police Department, also known as BART.
    On behalf of BART's Board of Directors, our 3,500 employees and our 
350,000 daily riders, I appreciate being given the opportunity to 
testify before you today.
    BART's role as the backbone of the region's transportation network 
is borne out both by what happens on a normal weekday and by what 
happens when circumstances are atypical.
    A normal weekday for BART means providing on-time service for about 
350,000 Bay Area residents across 105 miles of track, 44 stations in 4 
counties and 26 cities.
    Most often, as a law enforcement agency we provide a safe and 
secure environment for those within our system. The most recent 
atypical day we experienced was November 3, 2010 when BART system 
carried 522,200 customers to the San Francisco Giants' World Series 
Championship victory parade. The presence of large crowds traveling 
through the BART facilities for special events, such as the Giants' 
celebration, presents a predictable, target-rich environment for terror 
attacks and magnifies the risk and consequence of a terror attack that 
transit systems face daily.
    The attack in Madrid, Spain on March 11, 2004, the attacks in 
London, England on July 7 and 21, 2005 and the attack in Mumbai, India 
on November 26, 2008 illustrate with alarming clarity the vulnerability 
of public transit facilities. The United States Department of Homeland 
Security warns that the Nation's mass transit systems, which are 
considered to be part of America's ``critical infrastructure,'' are at 
high risk of being targeted by terrorists for mass casualty attacks.
    Soon after September 11, 2001 BART's administration aggressively 
focused upon identifying targets vulnerable to acts of terrorism in the 
BART system. After completing four threat/vulnerability assessments 
with three Government agencies and one private security firm, early on 
BART identified a need to complete an estimated $250 million in 
security projects. Recognizing its most critical and vulnerable asset, 
BART immediately invested capital funds to begin the hardening process.
    On Friday, July 8, 2005 representatives from TSA knocked on BART's 
door offering partnership and support in the wake to the tragic attack 
on London's transportation systems thus beginning our partnership that 
continues to this day.
    Beginning in 2003 and continuing through 2005, Urban Area Security 
Initiative (UASI) dollars helped to fund the specific projects to 
further harden the critical infrastructure of the BART system.
    Receiving Transit Security Grant Program (TSGP) funds in 2006 
through 2010 has allowed for the expansion of these security projects 
to address the identified security needs of other vulnerable critical 
assets.
    Today we continue to use Transit Security Grant Program funds, as 
well as other local, State, and Federal funds, to strategically and 
methodically eliminate identified vulnerabilities from the previously 
mentioned threat/vulnerability assessments.
    The engineering challenges to protect and mitigate the effects of a 
terrorist attack have been greater than originally imagined. 
Understanding the required expertise needed, we have, and continue to, 
rely upon the Department of Homeland Security and the Transportation 
Security Administration for support and direction. Without their 
unwavering commitment to BART specifically, and to our allied 
transportation systems, our ability to achieve success would be 
extremely limited.
    Due to the unique environment in which our system is located, the 
complexity of the security projects has exceeded our local resources 
and it is the support from DHS and TSA that enables us to move these 
security projects forward.
    As for passenger screening, from the beginning, it was clear that 
the post-9/11 security measures that were developed for airports would 
not work in the subway systems of America. BART is Bay Area RAPID 
Transit and if we lose the rapid, we cease to serve our customers and 
the region. Although BART is a fairly new system, our infrastructure 
was not designed to accommodate the space and equipment required to 
screen large numbers of passengers and current technology cannot 
process large numbers of passengers quickly enough for the mass transit 
environment.
    Further proof of the successes brought to us by DHS and TSA are the 
following projects and programs:
  <bullet> Financial support for major capital projects to harden 
        BART's critical infrastructure;
  <bullet> TSA Explosives Detection K-9 Program;
  <bullet> Operational Pack funding the Critical Asset Patrol Team 
        assigned to the critical asset corridor;
  <bullet> Training for BART's front-line employees on terrorism 
        awareness and identification;
  <bullet> Visible Intermodal Protection and Response (VIPR) teams 
        partnering with BART police officers to patrol critical assets 
        and special events;
  <bullet> RailSafe, linking transit agencies across the country on the 
        same date and time focusing on ``high visibility'' within our 
        properties.
    I would implore to you today, the funding source for Transportation 
agencies to solidify their properties is needed now more than ever. We 
have failed in the past to pay close attention to a threat that was 
considered foreign. We now know the same threat exist in our own 
homeland.
    As we approach the 10th anniversary of the 9/11 attacks, we cannot 
allow complacency to undermine our efforts to keep America secure. 
Chairman King, Ranking Member Thompson, and Members of the Committee on 
Homeland Security: On behalf of BART Police Chief Kenton Rainey and the 
San Francisco Bay Area Rapid Transit District, thank you for inviting 
me to testify today, I can now answer any questions you may have.

    Chairman King. Thank you very much, Chief Hartwig.
    I want to thank all the witnesses.
    My first question would be to Commissioner Daddario. In all 
the years I have known Ray Kelly, the only time I saw him 
really show concern was the night before Zazi was apprehended, 
because the NYPD knew the plot had become operational, that 
within 12 or 24 hours we could have had massive explosions on 
the New York City subway system.
    Can you put in some context what that plan would have 
achieved if it had been carried out, if Zazi and his 
confederates, his co-conspirators had been able to carry out 
that plan, the impact it would have had on the New York City 
subway system?
    Mr. Daddario. Mr. Chairman, all these attacks on subway 
systems are designed not to cause the system's infrastructure 
to collapse; they are designed to terrorize the public, so as 
to cause people to have grave concerns about boarding a train, 
going to work, going to visit friends, going about their lives.
    That type of terror, if applied in any type of consistent 
way, could--would, in fact--substantially diminish the economic 
life of a city, the vitality of the city. To a city like New 
York, if you do that to the subway system, you are essentially 
choking the city, sort of choking the air out of the city.
    You potentially could--and this is, I think, part of the 
whole reason why you attack transit systems, is you hope that 
it will bring the life of the city to a--to basically kill it, 
kind of impose a level of fear over the population so that all 
of the activities that we need to engage in on a daily basis to 
keep the city strong, vital, alive would be substantially 
diminished.
    That was the major concern about Zazi. Something like that 
has not happened in New York. We want to make sure that it 
doesn't happen, that everyone feels that they can board the 
trains, move about freely.
    I heard Mr. Fugate say how he uses, you know, the subway, 
goes on Amtrak. He depends on it. He wants to be able to do 
that without feeling he is going to be blown up or have someone 
come in and shoot him to death.
    I think every Member of this committee understands how 
important mass transit is and public transportation is to the 
economic life of the United States and its major cities--and 
not just its economic life, its cultural life, its life. I 
mean, moving about is not just a matter of finances and 
economics; it is a question of how people live. What these 
terrorist attacks are designed to do is to really attack our 
way of life, to attack not just subways but all kinds of 
activities in the public sphere so as to, you know, bring 
life--ordinary, regular life that people depend on to an end.
    So, we feel that the investments that this committee has 
supported over the years is extraordinarily important. We 
depend in large part on Federal funding to help us achieve the 
type of security we want. We know we have the continued support 
of the committee, you know, given these current budgetary 
constraints, with the type of mission that we are engaged in, 
Mr. Fugate, Mr. Pistole, and everyone here at this table is 
engaged in day-to-day.
    Chairman King. Okay.
    Director Pistole, you touched on it in your testimony. Can 
you amplify more on the VIPR system, how successful you think 
it has been, how accepted it is, and do you see it expanding at 
all--do you see the need to expand it? Explain what it is, 
really, so all the Members will understand what it consists of.
    Mr. Pistole. Mr. Chairman, the whole premise behind the 
Visible Intermodal Protection and Response Teams are to provide 
just that, an unpredictable deterrent to those who may want to 
cause harm. So whether it is the 7/7 bombers in London who--
obviously, the five with the backpacks--nine backpacks; it is a 
question of how many other people may have been involved.
    The idea is, if we can present a visible presence, police 
presence, ideally with K-9, CCTV--we know from debriefings of 
people who have cooperated once they have pled that the three 
main deterrents are the uniformed presence of a police officer, 
a K-9, and CCTV. Now, the first two are absolutely the best. 
CCTV is good if you don't have a suicide bomber. But, as we 
know with the 7/7 bombers and the attempted ones on 7/21 of 
2005 in London, that suicide bombers, one of them actually 
looked at the CCTV before going in the London Underground.
    So the idea is to be a deterrent. The measure of success is 
difficult to quantify to say, did we deter a terrorist attack 
today? The whole point is to attempt to deter and push off to 
another day, which gives the rest of the intelligence 
community, the law enforcement community, the opportunity to 
identify and intercept a putative terrorist.
    Chairman King. Thank you.
    The Ranking Member is recognized.
    Mr. Thompson. Thank you, Mr. Chairman.
    Mr. Fugate, you referenced an MOU that has been signed 
between FEMA and TSA. Could you make that MOU available to the 
committee?
    Mr. Fugate. Yes, sir.
    Mr. Thompson. Is your testimony that it covers those items 
that previously had been identified as weaknesses in the 
system?
    Mr. Fugate. Yes, sir. In addition to that, as you pointed 
out, the performance measures are being implemented in the 2011 
grant cycle, as recommended by the IG. So I think that we would 
be more than happy to provide back to you and your staff and to 
the committee as a whole the actions we have taken to address 
the IG and General Accounting Office findings.
    Mr. Thompson. Thank you. I am convinced that is an 
important aspect.
    To the operators of transit systems--and we will start with 
New York first, if that is all right. If these funds were not 
available to provide security enhancements, what would New York 
have to do?
    Mr. Daddario. Well, if they weren't made available, we 
would have to try to find money from--we would have to try to 
strip money away from other types of activities we are engaged 
in that protect the public. Because, remember, the mission of 
the police department----
    Chairman King. Would you use the microphone?
    Mr. Daddario. I am sorry.
    If the money wasn't available, we would have to try to find 
money from other sources, from State and local tax revenues, to 
support our counterterrorism activities.
    Some of what we do simply wouldn't be possible. The Domain 
Awareness System that we have created, which is a fiberoptic 
link around the city where we have computers which gather up 
information from cameras, license plate readers, other data 
sources in real time, simply wouldn't be possible without 
Federal money, for example.
    Some of our deployments that we have, where we really put 
enormous amounts of officers on the platforms, would be very, 
very difficult without Federal money. I think it would 
compromise the level of security we have, quite frankly.
    Mr. Thompson. Thank you.
    Mr. Rodriguez.
    Mr. Rodriguez. Yes, sir. The Chicago Transit Authority, the 
only means that we would have for actually finding any 
additional funds separate from the Department of Homeland 
Security funds would be our operational funds. We generate half 
of our own revenues from fare boxes, from our customers, from 
advertisements and concessions. The other half truly comes in--
it is subsidized from sales taxes and a small amount from real 
estate transfer taxes, both of which, unfortunately, given the 
economic condition of our country, have been very challenging 
for the past 2 years.
    So if the question that you are posing is where we would 
find the money, the answer is operational funds, meaning I 
would have to further reduce service than what has already been 
done. Unfortunately, Chicago Transit Authority, in February of 
last year, had to reduce about 18 percent of our bus hours 
service. So basically cut service about 20 percent across not 
just the city of Chicago but the 40 suburbs that we service as 
well. About 9 percent are rail hours, the number of hours that 
we provide service on our railroad, as well.
    We had to downsize our organization by 10 percent. So we 
have taken a significant hit in terms of the capacity and the 
service that we are able to provide. Any further reduction in 
funds from Department of Homeland Security would impact that.
    Separate and apart from that, there is about $50 million 
that both the CTA and the Chicago Police Department, combined, 
spend annually on safety and security-related expenses that are 
not reimbursed by Department of Homeland Security. So, separate 
from that, there is a greater need, as well.
    Mr. Thompson. Mr. Hartwig.
    Mr. Hartwig. Sir, without the ability to continue the 
partnerships that we have developed through these funding 
services that are located from Federal sources, I fear that we 
would cease to exist and cease to provide the level of security 
that we currently have.
    The restrictions placed upon State and local funding 
resources in the State of California are extremely diminished. 
I would agree with Mr. Rodriguez that we would refer to an 
operational contribution, which would further impact the 
services we supply at BART.
    The value of these partnerships and the value of the funds 
to complete these security projects, if they did not exist, we 
would work with what we have, we would try to achieve more with 
less. We would not achieve the success levels that we currently 
experience.
    Mr. Thompson. Thank you.
    Mr. Chairman, a point--I think you made it--is, given some 
of the challenges that we are facing right now, I think it is 
inconceivable that we ought to, as Members of Congress and this 
committee, vote to cut any transit security dollars. Some 
Members of this committee already have voted earlier in the 
year to do that. I would just say that any further cuts, based 
on the testimony from New York, Chicago, and the Bay area would 
be absolutely detrimental.
    So I would just like to make sure the record reflects that 
this testimony from people who do it every day, as well as the 
individuals who administer the programs for us, that the 
personnel, the K-9s, the other enhancements that have gone into 
securing these facilities would be seriously jeopardized if any 
further cuts were made.
    I yield back.
    Chairman King. Yeah, I thank the Ranking Member.
    I would just add to that, I know New York, and I assume the 
other municipalities too, but New York certainly gets a very 
small percentage in reimbursement compared to what it spends on 
homeland security. So, as it is, the situation is tough enough 
in New York with over a thousand police officers dedicated to 
counterterrorism, and a significant portion of that on the mass 
transit system.
    With that, I recognize the gentleman from Alabama, the 
Chairman of the subcommittee, Mr. Rogers.
    Mr. Rogers. The only question I had was on the VIPR system, 
for Mr. Pistole. Are these VIPR groups deployed solely based on 
risk, or is there another criteria?
    Mr. Pistole. Congressman Rogers, it is primarily based on 
risk. We are obviously trying to make sure that we are in those 
locations and at those times which present the greatest risk. 
There may be some other criteria simply based on some ad-hoc 
requirements or something, but almost always based on risk, 
yes.
    Mr. Rogers. Great. Thank you.
    That is all I have, Mr. Chairman.
    Chairman King. The gentleman yields back.
    I recognize the gentleman from Illinois, Mr. Davis, for 5 
minutes.
    Mr. Davis. Thank you very much, Mr. Chairman. I want to 
thank you for calling this hearing and thank all of the 
witnesses for coming.
    Mr. Rodriguez, I know that your tenure is about to expire 
as president of the Chicago Transit Authority. I want to take 
this opportunity to commend you for your tremendous public 
service to not only the citizens of Chicago but certainly to 
the Nation, because Chicago, as we know, is the transportation 
hub and center of transportation for the Nation. So the 
outstanding work that you have done as commissioner of 
aviation, as well as the head of the Chicago Transit Authority, 
speaks volumes for what you have meant to our city as well as 
for the country. So thank you very much for that service.
    You testified that the Chicago Transit Authority had 
received high marks in all categories of security inspection. 
My question is, one, how did you manage to obtain that rating 
from Homeland Security? What is it that we need to do to make 
sure that Chicago's Transit Authority can continue in the vein 
that you have led it?
    Mr. Rodriguez. Thank you very much for the kind words, 
Congressman.
    The two things that I can say to respond to both your 
questions, No. 1, is, having obtained the high grades, I would 
almost look to my colleague, Mr. Pistole here, who is the one 
who came and gave us the reward on having received high marks. 
But the reality is that we have a great team. We have a great 
person, for example, Amy Kovalan, who is sitting directly 
behind me, the chief of safety and security for the entire 
organization. I give her full credit for having obtained the 
award that we received.
    But, more importantly, to your second question, is what it 
is that you can do to help us continue doing what we are doing 
is it is a funding issue. The bottom line is that it is a 
funding issue. As I had mentioned, separate and apart from the 
grants that we currently receive, we out-of-pocket an 
additional $50 million per year, both ourselves in combination 
with the Chicago Police Department, on transit security-related 
services. So any thought of reducing what we already receive 
would be extremely detrimental to our system.
    Again, keeping in mind that our name is somewhat of a 
misnomer, although we are called the Chicago Transit Authority, 
we serve the region, the city of Chicago and 40 different 
suburbs. So it would be detrimental to the economy of the 
entire region if we had to somehow continue to reduce service 
to upkeep the security initiatives that we have in place.
    So it is additional funding, sir.
    Mr. Davis. Well, I want to thank you very much.
    I want to echo the sentiments that were expressed by the 
Ranking Member and by the Chairman, that it appears to me that 
funding is absolutely essential--and that is, funding from the 
Federal Government level. I don't see any way that State and 
local governments can provide what is needed.
    So I again commend you for your outstanding service.
    Mr. Chairman, I have no further questions and would yield 
back the balance of my time.
    Chairman King. I would thank the gentleman.
    I would ask the record to show that I showed restraint when 
you said that Chicago is the leading transit system in the 
country.
    I want to join you in thanking Mr. Rodriguez for his 
service.
    I recognize the gentleman from Pennsylvania, former United 
States Attorney, Mr. Marino.
    Mr. Marino. Thank you, Mr. Chairman.
    I can't compete with New York or other large metropolitan 
areas, but, being a U.S. Attorney, I do understand what these 
gentlemen have to deal with on a daily basis, and I certainly 
appreciate what you do.
    Aside from the funding--and we know that is the critical 
aspect here--could each of you take about a minute, because I 
have less than 5 minutes, and describe your relationship with 
other agencies--Federal, State, and local--and how that is 
going? I am not asking you to be critical, but I am asking you 
to state the facts and how thorough we are in exchanging 
information and cooperating from top to bottom and side to 
side.
    So, Mr. Pistole, please.
    Mr. Pistole. Thank you, sir.
    So, for TSA, since I started last July, one of the first 
things I learned is that TSA obviously can't be all things to 
all people in all places at all times, when it comes to threat 
mitigation, and recognizing that we can never fully eliminate 
the risk, but we can do a lot of things in terms of mitigating 
the risk.
    But the best we do that is through our partnerships, and 
whether it is through grant funding, whether it is through 
joint training--I think agencies that train together perform 
well together. It also gets to the issue of resiliency because, 
unfortunately, I believe that it is not a question of if but 
when there will be an attack here on the homeland.
    So how do we prepare for that attack, and then how can we 
respond to it; information sharing is a key part of that.
    I will just try to keep my answer brief there.
    Mr. Marino. Thank you.
    Mr. Fugate.
    Mr. Fugate. Yes, sir. As the grant administrator, we work 
with a lot of partners. But I have to, for your benefit and for 
the Chairman's benefit, I cannot express how glad I am that 
John Pistole took the position as the administrator of TSA. I 
think we have a much stronger working relationship.
    Obviously, when we are working with our locals, it is 
important that DHS speaks with one voice, as they are the 
subject-matter experts for the grant administrator. I think 
John has been a strong partner in improving that relationship. 
I cannot give him enough credit. He was instrumental in helping 
us get the MOU with TSA and FEMA to make sure that we are 
serving our locals and States with one voice from DHS.
    Mr. Marino. Thank you, sir.
    Mr. Daddario.
    Mr. Daddario. Yes, Congressman, we have, I think, an 
excellent relationship with TSA and FEMA. We also have a very 
close relationship with Federal law enforcement and the 
intelligence community. We have over 120 detectives and other 
officers at the JTTF in New York. We also have officers here at 
LX-1 and NCTC and other Federal agencies and law enforcement 
and public safety agencies.
    We have very good relationships with the MTA, the 
Metropolitan Transportation Authority, the Port Authority, 
Amtrak, Long Island Rail Road, New Jersey Transit. We, in fact, 
host various meetings to coordinate rail transit safety and 
security issues. We also have very good relationships with 
local law enforcement offices in the region through various 
programs we have, where we have outreach and liaison 
relationships, including joint training operations with other 
law enforcement offices.
    So I would say, overall, we have excellent relationships, 
both Federal, State, and local.
    Mr. Marino. Thank you.
    Mr. Rodriguez.
    Mr. Rodriguez. I would echo the exact same sentiment. I 
would give accolades of the amount of information that we 
receive in our region. We work very well with the Joint 
Terrorism Task Force on the FBI side. We work very well with 
FEMA, with the Illinois Emergency Management Agency, as well.
    What the city of Chicago, I think, has done very well for 
the past number of years is, we have what is called the Office 
of Emergency Management and Communications. It is the hub for 
Federal agencies, for State agencies, and city agencies to 
communicate about any type of disaster preparedness for the 
city of Chicago and its region.
    So, one of the things, too, that I think has improved our 
communication over the past few years has been the ability for 
us to federate our CCTV network, our cameras. So the Chicago 
Transit Authority, along with police networks and Federal 
agencies, all have access to our cameras.
    If you look at the transit system, as it spreads out from 
the central business district and out through the region, we 
have one of the best fiberoptic networks in the entire region, 
and everyone loves to use our system. We welcome the use of our 
system and of our cameras. So thousands of cameras, I think, 
has improved the ability for us to communicate effectively and 
very well.
    Mr. Marino. Thank you.
    Mr. Hartwig.
    Mr. Hartwig. Congressman, twice yearly, sponsored by FEMA, 
TSA, the safety/security executives from, I believe, the 50 
largest transportation agencies meet. The expertise and the 
knowledge that is exchanged at those meetings is invaluable.
    That said, BART will celebrate its 40th year of service 
September 11, this coming September 11. The gentlemen at this 
table, the ladies and gentlemen in this audience, provide 
support to my system specifically.
    We are basically in the embryo stage of the transportation 
business. I make many phone calls. I don't have a lot of 
answers, myself personally, but I know a lot of people that 
point me in the right direction. So the contacts that are 
created through these transportation and safety and security 
opportunities, again, are invaluable. Without the support of 
these agencies represented here today, we would struggle.
    Mr. Marino. Thank you, gentlemen.
    Mr. Chairman, I yield back. Thank you.
    Chairman King. I thank the gentleman.
    I recognize the gentlelady from Texas, Ms. Jackson Lee, for 
5 minutes.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman, and 
thank you for this hearing.
    I think the more frequently we address our responsibilities 
in oversight and security, the more effective and important our 
committee becomes, in light of the recent incidents that showed 
how great America is. I could not be in a Homeland Security 
hearing without expressing, again, my appreciation to all of 
the National security team, including our United States 
military and the President of the United States, for a historic 
effort that resulted in the demise of the face of terrorism, 
Osama bin Laden.
    That doesn't in any way diminish the responsibility of 
those of you at this table for the general responsibility of 
your jobs in Chicago and, I believe, San Francisco. Then the 
administrators here in Washington, we now have the 
responsibility to be ever ready for the potential of collateral 
damage. So this hearing is enormously important for these 
grants' focus on the infrastructure of transportation and how 
we are continuing our protection.
    Let me also acknowledge my concern and sympathy for those 
in Alabama. My colleague and Chairman of the committee I serve 
as Ranking Member on had his community impacted. I know that we 
are forever vigilant on being able to help the people of the 
region that suffered with the massive tornados.
    Mr. Fugate, I would appreciate your returning my phone call 
on the issues that I have just expressed, and I look forward to 
us getting a meeting scheduled. I also would like, as an aside, 
an update on the response to the fires in Texas. So, if your 
staff can get with my staff, I would appreciate it.
    What I do want to inquire--and I do want to add my 
appreciation for the immediate work for FEMA that I perceived 
as this tragedy moved forward. Let me just ask you quickly: 
What is the role of FEMA in the transportation security grants? 
Just very quickly, because I wanted to speak to Mr. Pistole, 
please.
    Mr. Fugate. Yes, ma'am. Our primary role is to administer 
the grant programs to provide the oversight and monitoring of 
the performance of those grants. But the subject-matter experts 
is really with the Transportation Security Administration.
    Ms. Jackson Lee. Let me say that you have done that well, 
and my next points will not be a reflection on how FEMA has 
handled it.
    Let me, Mr. Pistole, focus on something that I am 
particularly concerned about. You are quoted that, ``Surface 
inspectors are the jack of all trades.'' If you believe that 
they are specialists enough, would you call them experts? Would 
you call the surface inspectors experts? If so, what kind of 
experts are they? What is their educational background and 
years of experience, in terms of the people that you would 
hire? Because I think this is very much a part of the grants. 
What kind of training is provided for surface inspectors? What 
is the duration of the training, and how often is this type of 
training occurring?
    I would also ask the question why we don't merge the whole 
administrative and selections process under TSA, because FEMA 
certainly has a lot of other responsibilities.
    But the main issue is the training of surface inspectors 
and what kinds of individuals do you select.
    Mr. Pistole. Thank you, Congresswoman----
    Ms. Jackson Lee. How many hours do you believe they should 
be in training?
    Mr. Pistole. So the general construct is that all of our 
surface inspectors go through a 5-week basic training. I 
visited those, a class of 23, several weeks ago in Oklahoma 
City at the FAA facility there. That basic training is to 
ensure that, if we have a surge capacity need in any particular 
areas, whether it is cargo, whether it is aviation, whatever it 
may be, that they have the ability to assist on that.
    Those who go on to specialized training then continue, and 
whether it is 1-, 2-, 3-week schools, but that will continue 
over the course of their career.
    In terms of their baseline qualifications, the class of 23 
that I just met with ranged across the board. Most came from 
industry themselves, so they have a good understanding and work 
experience before ever coming to TSA. So they understand how 
things should be done and when things are not working right 
what can be done to address it and remediate those problems.
    I can, obviously, get you the exact statistics on--or the 
figures on the demographics in terms of work experience, age, 
all those things. I was struck by--because I went around, I 
asked each one to give me their background--I was struck by the 
wealth of experience that they brought to the table.
    Ms. Jackson Lee. Mr. Pistole, it has come to my attention 
that there is only 1-week training on surface transportation. 
So I need you to explain that. How much training do you need 
they need to become experts? I think we have a training 
Achilles' heel.
    Mr. Pistole. Well, I agree, Congresswoman, that the more 
training that they can receive and the better on-the-job 
experience and training and just their experience before coming 
to TSA are all critical factors. So we are looking to expand 
that training to specialize.
    But I want every surface inspector to have a broad base, 
but I also want to have those that have specialized training--
and they do. It is a question of how much can we do while they 
are also doing the critical functions that we ask them to do.
    Chairman King. The time of the gentlelady has expired.
    Ms. Jackson Lee. Mr. Chairman, could I just put a question 
on the record for him to put in writing, please? I just want to 
put it on the record.
    Chairman King. Yes.
    Ms. Jackson Lee. Mr. Pistole, would you provide me with the 
staffing that are your closest advisors and the diversity and 
the numbers of years or months that they have been in TSA? I 
would like them by diversity and, as well, male/female, et 
cetera, and ethnic diversity, your key advisors, please.
    Mr. Pistole. Gladly.
    Ms. Jackson Lee. Thank you.
    I would yield.
    Chairman King. The time of the gentlelady has expired.
    The gentleman from Pennsylvania, also a United States 
Attorney and the Chairman of the Subcommittee on Terrorism and 
Intelligence, Mr. Meehan, 5 minutes.
    Mr. Meehan. Thank you, Mr. Chairman.
    I think you probably passed over one of the more important 
requirements or qualifications for this, as I used to regularly 
take the subway into work when I worked as a U.S. Attorney in 
Philadelphia. So I appreciate the tremendous challenges that 
all of you are facing.
    We have discussed a little bit of the issue today about 
funding. That is certainly always a battle. I also appreciate 
some of the important oversight responsibilities, because there 
is nothing worse than sending money down the line that isn't 
well-spent. But there is a real issue with money that is still 
out there.
    I am referring to a GAO report, Mr. Fugate, that discusses 
that in only 3 percent of the funding from 2005 to 2007, in the 
study, had found its way down the line. My understanding is 
that, as of last year or early this year, we are still looking 
at only 13 percent of the funding, which has already been put 
in place, that is available, is in the line and being spent.
    Where is the problem? What can we do to fix it so that 
money that has already been appropriated, that is sitting 
there, is well-used?
    Mr. Fugate. Well, I think there are several pieces of this, 
and I think it is challenging. I served as a State 
administrator of agency, and whenever we got into a capital 
project where we were going to do construction, we not only 
have the grant program itself, we have our own State and local 
regulations to work through--bids, construction. As these work 
as reimbursement grants, some of these projects take multiple 
years to fund and complete.
    But we also recognize there is something we can do about 
the lack of drawdown, and that is to bring visibility to the 
remaining balances that States have that they are clear to 
bring and seek reimbursement for. Oftentimes, as we go through 
from local to State reimbursement processes and getting those 
funds drawn down, by showing those outstanding balances to many 
of the senior leadership, it is starting to move those dollars 
more rapidly. They are making those requests more timely.
    Again, I think this is part of our challenge, is 
recognizing that, unlike operational costs, such as dog, K-9 
units and other things, that you expend those funds, you seek 
your reimbursement in that calendar year. These construction 
projects have taken longer.
    But we think that one of the key steps is to show the 
remaining balances. That is causing a lot of the senior 
leadership to recognize the urgency of getting those dollars 
not just obligated--this is what we asked, they obligate the 
dollars, but to actually draw them down as they complete the 
work rapidly, so we can show that those funds have been 
received by the State and locals.
    Mr. Meehan. Is that where you are largely seeing these 
things at least being focused on as construction-based projects 
as right now as opposed to operational?
    Mr. Fugate. Yes, sir. The operational, we see those coming 
much quicker. But, again, as these work up through the system, 
we are looking for where bottlenecks are. Oftentimes, through 
the reimbursement process, it is important that, as we get 
these in, that we actually show--you know, the terminology 
sometimes drives me nuts, but the term ``obligated'' means we 
spent the money against that grant. But if you haven't drawn 
those dollars down, it still shows an outstanding balance.
    So we are trying to move past--just merely obligating it 
isn't addressing the issue. We actually need you to have those 
dollars that have been spent be drawn down to reduce those 
outstanding balances.
    Mr. Meehan. But we have to get them into a project that is 
doing something, as, for instance, enhanced camera security or 
the other things.
    Mr. Fugate. Yes.
    Mr. Meehan. I mean, the essence is to get these protections 
on the line.
    Let me ask a question. Maybe, Mr. Pistole, you can 
participate in the answer of this, as well. To the extent that 
we are making these, how do we look to assure that what funding 
is put is tied to vulnerability assessments, so that these 
dollars that we get are being spent in the ways that the 
professionals believe are going to have the greatest impact on 
preventing somebody else from carrying out an act of terrorism 
in our transportation system?
    Mr. Pistole. Thank you, Congressman. So we work with both 
the intelligence community, law enforcement community, and 
industry to identify what we collectively see as the most 
vulnerable points in the system. So, for example, whether it is 
a PATH tunnel between New Jersey, New York, if something 
catastrophic happened to one of those, what would be the 
impact, not just to the loss of human life, but the economic 
impact, as was described earlier.
    So there is a thorough assessment that is done. There is a 
ranking of those that is obviously closely held. We don't 
publish that, obviously. But it is--obviously, we will make it 
available to the committee. So we look at that and say, how can 
we then use and basically invest those funds in the most 
prudent way to buy down that risk?
    So we can't just spread out the money everywhere across the 
country. In my hometown in Indiana, there has been--all the 
years I have been doing this, there has never been anything in 
the threat matrix identifying that hometown as a target. So we 
try to look at those areas where there is the greatest risk and 
vulnerability and how can we apply that money in a coordinated 
fashion.
    Mr. Meehan. Just one closing comment. I know in the 
aftermath of the very wonderful events that happened just the 
other day, I know we are also quite aware of the potential for 
repercussions. One of the first places that we all look are in 
the transit systems. I want to express my appreciation to those 
of you who are on the front lines. I know you are already 
beginning to work in a collaborative fashion to try to 
strengthen the utilization of the resources we have dedicated 
to it to keep them safer at this sensitive time. So good luck 
to you.
    Thanks.
    Chairman King. I thank the gentleman.
    The gentlelady from New York is recognized for 5 minutes.
    Ms. Clarke of New York. Thank you very much, Mr. Chairman. 
Thank you to our Ranking Member.
    Let me also thank our panelists for bringing their 
expertise to bear on this very important hearing their morning.
    My question is really to those of you who operate transit 
systems. As has already been stated by a number of my 
colleagues, in the wake of the demise of Osama bin Laden, we 
must all prepare ourselves for possible retaliatory events. I 
want to use this opportunity to implore all Americans to remain 
vigilant and to remember if they see something to say 
something.
    Terrorist events around the world have shown that mass 
transit systems, like other modes of transportation, are 
oftentimes targets of attack. New York City has one of the 
largest subway systems in the world, as well as one of the most 
complex and intricate bus transportation networks. Millions of 
people ride these systems every day. A plot to attack the New 
York City subway system has been thwarted in September 2009. 
The Metropolitan Transportation Authority has worked hard to 
keep passengers safe, as I know our other transit systems have.
    My question is: How would these cuts in transit security, 
in the Transit Security Grant Program, potentially hurt your 
progress made in training workers, equipment upgrades, and 
repairing the system?
    I personally believe that we must at least support a 
maintenance of effort in terms of funding. But, at best, I 
think we should consider a line-item funding from our Federal 
budget that would keep our Nation's mass transit systems in a 
forward-leaning posture. So I want to ask that of you.
    Then, if you could, in the remaining time, also address 
what your agencies are doing to exercise evacuation plans. The 
public does not hear enough about that, and I know that, having 
witnessed what took place on 9/11, there is always mass 
hysteria.
    So I would like you to try to tackle both those questions.
    Thank you, Mr. Chairman.
    Mr. Daddario. Congresswoman, certainly, if there is a 
reduction in funding, it will compromise, to some extent, the 
security of the transit system. There will have to be 
reductions in training, some of the deployments we use. Quite 
frankly, it would be impossible to compensate for the loss of 
Federal money from local revenues. I just think that is--just 
common sense tells you that.
    With respect to evacuation plans, the police department has 
evacuation plans for each bureau. We also have--I believe the 
Office of Emergency Management, working right now with Federal 
DHS money, on a catastrophic study which involves evacuation, 
as well. The police department will begin working with OEM on 
that, as well.
    So from the New York City Police Department perspective, we 
think we have sound evacuation plans in place.
    Mr. Rodriguez. Yes, ma'am. To answer that question, the 
city of Chicago, along with, as I had mentioned earlier, the 
Office of Emergency Management and Communications is basically 
the centerpiece of us conducting any types of evacuations, both 
in our subway systems and across the city itself. So they 
pulled together the Chicago Police Department, the Chicago Fire 
Department, Federal agencies as well. We have done some 
exercises basically evacuating downtown areas completely in 
case of an emergency. That is something that the mayor has done 
very aggressively in his tenure there. The CTA and our network 
has been used to basically reverse commute and move everyone 
out, if that is the case.
    So in terms of those types of evacuations, those continue. 
They are funded with Department of Homeland Security funding, 
so that would be a huge blow to us.
    Separate and apart from that, I would very much welcome a 
steady stream of on-going funds, because the reality is, again, 
taking the cameras as a topic, as we have been discussing, is 
the initiatives that we have to continue installing cameras, 
thermal cameras, in our subway systems and throughout our 
entire network. We would have to delay the project.
    It is not just a one-time installation. Technology changes; 
we have to continue maintaining these. We have cameras on our 
system that are analog that are 5-year-old technology. With the 
high-definition type of technology that is available now, I am 
able to install one camera in the place of five old ones.
    So, as technology continues to advance, we have to continue 
making that investment. Analytics on the cameras, too, which 
will require much less human monitoring of the cameras. So, as 
technology advances, that is an on-going investment. A steady 
stream of funds, a line item, as you say, would be very much 
welcomed.
    Mr. Hartwig. Congresswoman, again, on the funding issue, 
the boots on the ground, uniforms, the front-line employees, 
the people involved within my system that have received 
training about terrorism awareness and recognition, will serve 
them forever. That is a given.
    What we will fail to have is to have the ability to do 
enhanced layers of security that have a serious cost to them 
within our infrastructure--technology.
    My property has a unique, unique location, the second-
longest underwater tube in the world. The design process alone 
is a huge challenge. How does that translate in what we look 
at? In 1989, Loma Prieta earthquake. We represent earthquake 
country in California. Our evacuation plans are directly tied 
to the Office of Emergency Services. It is kind of a unique 
system. When you look at a transportation agency, it is to 
first get the people out of the transportation location and 
control that chaos. We have witnessed it. We have been very 
lucky. The lessons learned from those opportunities are to 
enhance those evacuation plans. We train on a regular basis, 
most recently 3 weeks ago, with all of our local first 
responders within northern California and specifically the city 
of Oakland, not just police and firefighters, medical, offices 
of emergency services. Those drills go on on a regular basis. I 
think we are well-prepared.
    The training aspect is a fully funded source, as well. We 
need those funds to continue to provide layers of security. 
Training is at the top of the list.
    Chairman King. Your time has expired.
    The gentleman from Illinois, Mr. Walsh, is recognized for 5 
minutes.
    Mr. Walsh. Thank you, Mr. Chairman and Ranking Member and 
all the guests who came to testify.
    Mr. Pistole, quick question. TSA has more than doubled the 
size of its inspectors in its Surface Transportation Security 
Inspection Program in the last few years. Explain how TSA 
assesses how this increased number of inspectors is actually 
improving security and where they are most needed.
    Mr. Pistole. Thank you, Congressman.
    There are a number of areas. I will highlight the most 
significant.
    One is in our Certified Cargo Screening Program. So we use 
inspectors to go in and actually inspect over 1,160 companies 
that do screening of cargo that go either on cargo planes or, 
as we know, most go on passenger planes. So as opposed to TSA 
trying to do that all ourselves, we work with private industry 
to assure that that cargo is being properly screened, 
especially given the Yemen cargo plot that we saw last October. 
That allows us to trust, but we need to verify, in the sense 
that we have to inspect each of those to ensure that they are 
doing it to our standards.
    I will note that we have found several instances where some 
of that screening was being falsified. So there are on-going 
investigations, both civil and criminal, as to individuals who 
have certified they were doing the screening when it was not 
being properly done.
    So that is a key area. There are other areas, but that is 
one of the biggest areas as we continue trying to promote the 
free flow of goods and commerce and people with the best 
possible security.
    Mr. Walsh. Great, thanks.
    To our guests operating the transit system, quick question 
about training. What sorts of training do your workers receive 
when it comes to security matters? Do we distinguish between, 
you know, ticket agents and mechanics and the various types of 
training they receive when it comes to security issues? If you 
could each touch upon that.
    Mr. Daddario. The police department provides security 
through its police officers, so our training is primarily 
provided to police officers. They receive a whole range of 
training, including how to utilize certain equipment, like 
bomb-detection equipment, to detect terrorist activities, how 
to respond in the case of someone with a gun or a bomb, what is 
the right type of response. Training is of that type. Much of 
that training is provided with transportation security grant 
moneys.
    Mr. Walsh. Mr. Rodriguez.
    Mr. Rodriguez. So, similar to what has just been said is we 
look to the Chicago Police Department, Chicago Fire Department, 
and those agencies to respond when there is an actual issue or 
matter at hand. When it comes to our customers and our actual 
employees, we have campaigns, as the one that has been 
mentioned here, to see something, say something, for our 
customers.
    But our employees on hand, our customer assistance, our 
actual maintenance--as you had mentioned, just a variety of 
different job descriptions throughout the Authority--received 
the basic training on how it is to basically remain vigilant. 
We put notices out to our employees system-wide, all 10,000 of 
them, basically notifying them that they are all to remain 
alert and ensure that we are assisting our customers.
    So the campaign process is what we use to really notify 
everyone throughout the system, but we do also, again, do 
individualized training, depending on the individuals, on the 
job description.
    Mr. Walsh. I mean, to the point where, if a ticket agent 
sees a suspicious-looking package, is he or she trained in what 
procedures to----
    Mr. Rodriguez. Yes, absolutely. Again, we have what is 
called our control center, our operations center. Everything 
goes and flows through that information center there. Through 
that booth there, we have individuals from the Chicago Police 
Department, Chicago Fire Department that sit and visit there, 
as well from the Federal agencies. So the communication gets 
spread out through that hub there.
    But individuals such as that are notified that they are 
immediately to contact the control center, and we begin with 
the experts to address the issue, again, send in whatever teams 
need to be sent in to address the issue, be it a bag that is 
unidentified--we have oftentimes things like that occur--or 
individuals that are basically sometimes tourists who come in 
and love to take tons of pictures of our systems. We are not 
big fans of individuals coming in and taking pictures of our 
system. So they are trained to identify the tourists from the 
non-tourists.
    Mr. Walsh. Mr. Hartwig.
    Mr. Hartwig. Recognizing information from TSA specifically, 
in 2007 we took advantage of a funding source from TSA that 
trained our frontline employees--our station agents, our system 
service workers, those people that interact with our patrons on 
a daily basis. The police department recognized, if we want 
true information, the best people to receive it from are those 
people who work within those systems on a daily basis.
    Operations from a trains sense and operations from a police 
sense often dynamically oppose each other. The relationship 
that we now have with our operations department is to 
partnership and rely upon those employees. The distinction 
between a suspicious package and a McDonald's bag or 
newspapers, there is a big difference. Our agents know, have 
learned what that is.
    It is an on-going yearly certification program that they go 
to. The police department provides updates, again, a source 
that was provided by TSA.
    Mr. Walsh. Great.
    Thank you all.
    Thank you, Mr. Chairman.
    Chairman King. Thank you, Mr. Walsh.
    I recognize the gentleman from Massachusetts for 5 minutes, 
Mr. Keating.
    Mr. Keating. Thank you, Mr. Chairman.
    First, I would like to acknowledge the willingness of Mr. 
Pistole to help in the airport security issues surrounding the 
perimeter and tarmac issues, and I would like to publicly 
acknowledge that.
    Mr. Pistole. Thank you, sir.
    Mr. Keating. My question is more general, and I think it 
would be directed at Mr. Pistole. That is, there has been 
discussion this morning about the increased threats relating to 
the events of the last few days and the killing of Osama bin 
Laden. But it was just a few weeks ago that the Secretary of 
Homeland Security told us that at no time since 9/11--this was 
prior to the more immediate events--at no time since 9/11 has 
this country been in greater danger.
    I wanted to ask you if that includes, as well, these 
increased threats. Does that also include threats to mass 
transit? Particularly, my concern is in light of what is going 
on in the rest of the world, with increased targets being bus, 
rail, and other factors, ports.
    So I wanted you to just address, from your perspective, in 
mass transit, is that consistent, as well, or is it greater 
even, in terms of the Secretary's remarks of the greater 
threats we are facing right now?
    Mr. Pistole. Thank, Congressman Keating.
    I think we are in one of those periods of time where there 
are so many unknowns, so many variables, that we are all trying 
to ensure that we are vigilant as to those things that have not 
come up on the intelligence community or law enforcement 
community's radar, whether it is a lone wolf, as was mentioned 
earlier, somebody who may be either inspired by what has 
happened in this past week to take action on their own.
    Without going into detail, of course there are no specific 
threats to mass or rail transit right now in the United States. 
We are very mindful about what has happened around the world, 
particularly since the Madrid bombing back in 2004. So, we see 
those vulnerabilities, we see what is happening in Moscow in 
the subway there, we see what has--of course, other places 
already mentioned.
    So I think it is a relative term or assessment as to are we 
more vulnerable now or less. The bottom line is we are 
concerned today, just as we were yesterday and will be 
tomorrow, that terrorists are try to go hurt us or try to kill 
us in any means or mode that they can, and recognizing that 
transportation is one of those key vulnerabilities that we know 
both al-Qaeda, core al-Qaeda, and bin Ladin, Zawahiri, and all 
the others, or al-Qaeda in the Arabian Peninsula, as we have 
seen with the cargo plot and underwear plot coming out of AQAP.
    We know that those are key modes that they are trying to 
affect, not only our livelihood, and as Administrator Fugate 
mentioned about the terrorist impact, but our economy. We saw 
from Inspire Magazine, $4,200, you know, on the cargo plot is 
all it cost them, and yet the billions that it could impact, 
the global supply chain. So those are all things we are focused 
on.
    Mr. Keating. Quickly, I think this relates to funding as 
well, but we have been told that there is greater concern about 
domestic-based threats. It would seem to me that mass transit 
targets would be easier, for lack of a better word, for 
domestic-based threats than others.
    So with that as a greater threat--and that has been 
consistently told to us, that there is concern for domestic-
based terrorism--is it a feeling of yours that you are a 
higher-level target as a result of domestic-based threats than 
perhaps other types of threats?
    Mr. Pistole. Well, yeah, absolutely, Congressman. I mean, 
it complicates--we are not just looking for those coming from 
overseas that may be more or easier to identify, hopefully. But 
with over 300 million people here, based on my experience in 
the FBI and all the investigations that we had on people who 
were homegrown or facilitators, enablers, whatever, providing 
material support--and, of course, this just going back to what 
we have seen with Timothy McVeigh in Oklahoma City and Eric 
Rudolph in the clinic bombings in the South or Ted Kaczynski, 
the Unabomber. I mean, we have people born and raised here that 
have caused us harm and killed hundreds of people, so that is 
equally of concern.
    Mr. Keating. I yield back the rest of my time, Mr. 
Chairman.
    Chairman King. I thank the gentleman.
    The gentlelady from California, Ms. Richardson, is 
recognized for 5 minutes.
    Ms. Richardson. Thank you, Mr. Chairman.
    Thank you to all the witnesses for spending your time with 
us today.
    Mr. Fugate, last December, the inspector general released a 
report on the use of Recovery Act funds by FEMA for TSGP. In 
fact, I was a little delayed because I was in a Transportation 
meeting discussing the same thing about recovery dollars.
    The report provided two charts, one indicating the amounts 
disbursed for operational and capital investments and the other 
outlaying the amount of jobs that were created directly 
correlating with the fund allocations. Some of the mass transit 
agencies that received ARRA funds did not reflect any job 
creation numbers, while others that received less were able to 
create jobs.
    Can you please explain how FEMA collects metrics through 
which allocates and can be measured to effectively mitigate 
threat and, in the case of ARRA funds, stimulate the economy by 
creating jobs?
    Mr. Fugate. Thank you for the question.
    This goes back to even further, originally, findings from 
the General Accounting Office and from the inspector general 
that we did not have strong performance metrics tied to many of 
our grant programs.
    In the case of the Transportation Security Grant Program, 
we are implementing that for 2011. So we are still having to go 
back on Recovery funds and try to get the information and show 
those connections and look at what was created.
    I think you have pointed out that it was not equal, as we 
saw others. Some agencies did create a lot of jobs. Others went 
into projects and capital improvements that maybe were not 
showing those jobs. So we will work to collect that information 
for you.
    But we are working to build those tools into the 2011 grant 
cycle so we are able to pull out that information and show the 
accountability.
    Ms. Richardson. Thank you.
    Mr. Pistole, on January 26, 2009, you spoke at the TSA 
headquarters and stated that we want to put some focus on 
surface transportation--rail and transit and the like. Turn 
your attention to the following area.
    Then my follow-up question is: What actions have you taken 
since that speech to focus resources within TSA for programs to 
support mass transit security? I know you have been talking 
about it today, but specifically in reference to your speech, 
what did you do differently?
    Mr. Pistole. I am sorry, Congresswoman. You said the speech 
was in 2009?
    Ms. Richardson. Yes, January 26, 2009.
    Mr. Pistole. So I started TSA July 1, 2010, so it may have 
been in a different context or something, so I am not quite 
sure what that statement was.
    But that being said, what I have been focusing on since I 
became the administrator last July is ensuring that we can 
leverage strategic partnerships, given the funding that we 
have, based on TSGP and other opportunities we have for 
training, for K-9s, whether it is through--there are a number 
of different programs I could go into--I-STEP, different 
intelligence-sharing mediums and mechanisms that we have used.
    But the key is that it is partnership between industry, 
State and local law enforcement, and, obviously, Administrator 
Fugate and FEMA. How we can best leverage those limited, 
frankly, limited funds that we have in the most informed 
fashion that, again, reduces or mitigates risk without trying 
to eliminate risk?
    Ms. Richardson. Okay. The little whisper in my ear tells me 
it was 2010. So January 26, 2010.
    Mr. Pistole. Okay. I was still at the FBI----
    Ms. Richardson. Well, we can follow up and give you the 
notes of your own speech.
    Mr. Pistole. Sure.
    Ms. Richardson. We would be happy to.
    Administrator Fugate and Mr. Pistole, my final question, 
the Transit Security Administration has proposed changes to the 
Transit Security Grant Program guidance for 2011, which may 
have detrimental impacts on transit authorities and the 
partnership that has been developed since the program's 
inception. I have been informed that these changes are needed 
in order to be able to provide quantitative results of the TSGP 
by focusing on a majority of the funding on 62 distinct assets, 
meaning bridges, tunnels, stations, et cetera. This could 
potentially limit TSGP's flexibility.
    I have a two-part question, which essentially is: Can you 
discuss how you developed the list of the 62 assets? No. 2, do 
you see these changes--how would I phrase it? Do you think that 
it fails to recognize the true nature of the risks associated 
with the transit systems and fails to acknowledge that transit 
is a system of systems?
    For you, Mr. Pistole, I would like to know, were you 
involved with Mr. Fugate as these changes were proposed?
    Mr. Pistole. Thank you, Congresswoman. Yes, a multipart 
question there. Let me address the part about the, let's say, 
the 62 and looking at those critical infrastructures that we 
assess--we, the intelligence, law enforcement community, with 
the industry--that we assess as being most vulnerable.
    So it gets back to the issue of: How do we best invest our 
dollars, Federal dollars, with State and local dollars to buy 
down that risk? If there is a critical infrastructure, whether 
it is a bridge or a tunnel under a river, underwater tunnel or 
something, how can we best leverage our assets at the Federal 
level with State and local, in terms of what they are doing, 
whether it is on hardening that particular target, whether it 
is through additional K-9s or patrol officers or things like 
that? So those are all part of that.
    The MOU that Administrator Fugate mentioned earlier is, I 
think, a key step in moving us to the next level as we make 
informed judgments about where we can best invest the money 
that Congress provides to us.
    Ms. Richardson. Are you working with him directly on that?
    Mr. Pistole. Yes.
    Ms. Richardson. Okay.
    Mr. Fugate. Yes, Congresswoman. The working relationship 
with TSA is, as the subject-matter experts, they identify, 
prioritize what the threat is based upon the interaction that 
the administrator talked about. We are responsible for then 
ensuring that we have the grants administration but also 
building, as you point out, the matrices of how we measure that 
performance.
    Again, we understand that, as these decisions are being 
made, our ability to communicate and implement that as we go 
into each grant cycle is key to that success. But it also means 
working with TSA as the subject-matter expert on what that 
threat is, how to prioritize that as a subject-matter expert so 
that we can make sure the grant conforms to that threat.
    Ms. Richardson. Thank you.
    I yield back the balance of my time.
    Chairman King. I want to thank all the witnesses for their 
testimony. Thank you for your service.
    Mr. Rodriguez, we wish you the very best, and thank you for 
your service in Chicago.
    Members of the committee may have additional questions for 
you, and we will ask you to respond to them in writing. We will 
keep the record open for 10 days.
    Chairman King. Without objection, the committee stands 
adjourned.
    [Whereupon, at 11:40 a.m., the committee was adjourned.]


                           A P P E N D I X  I

                              ----------                              

        Statement For the Record of the American Bus Association
                              May 4, 2011
    Mr. Chairman and Members of the committee my name is Peter J. 
Pantuso and I am President and CEO of the American Bus Association. The 
ABA is the trade association for the private over-the-road bus 
companies and represents the tour, travel, and transportation 
industries. The ABA represents 800 motorcoach companies and nearly 60 
percent of all motorcoaches on the Nation's highways. In addition, the 
ABA represents another 3,000 tour operators, destinations, attractions, 
convention and visitors' bureaus, hotels and restaurants, as well as 
companies that manufacture motorcoaches and those that provide 
equipment and services to bus companies. ABA motorcoach operator 
members provide a variety of transportation services (scheduled 
service, point-to-point, tour and charter, commuter and airport and 
employee shuttle) to 760 million passengers a year.
    On behalf of the ABA and its members, I want to thank you, Mr. 
Chairman for convening this hearing. Transportation security is the 
highest priority for the ABA and its members. Motorcoach operators as 
well as the destinations that rely on motorcoach business, require 
security. Since fiscal year 2002 the appropriations process has allowed 
the private over-the-road bus industry to compete for funds to enhance 
the security of our facilities, equipment, and passengers. The program, 
better known as the Intercity Bus Security Grant Program (or IBSGP) is 
a competitive grant program administered by the Department of Homeland 
Security (DHS). From fiscal year 2002 to fiscal year 2010 the IBSGP has 
granted approximately $10 million dollars annually for bus security. 
For fiscal year 2011 the amount available for the IBSGP was reduced to 
$5 million dollars. By comparison, the domestic airlines, the Nation's 
transit system and Amtrak have been awarded billions for security 
funding in the years since 9/11.
    From fiscal year 2002 to fiscal year 2009 170 bus companies have 
been awarded IBSGP grants in the amount of a little over $83 million 
dollars (A copy of a chart detailing the grantees and the amounts 
awarded is attached to the end of my testimony). These grantees were 
awarded varying sums depending on their operational ``footprint'', 
resources, and size. Each grantee was required to provide at least a 25 
percent match to the amount of the grant and have in place a company-
wide security plan. In addition, the IBSGP had two tiers of awards; one 
for larger and scheduled service operators and a second for smaller, 
and generally charter and tour bus operators. The funds granted have 
been used for several purposes. Among them: The establishment of 
passenger screening procedures, the development of driver shields to 
deter attacks on drivers, provision of emergency communications between 
bus dispatch, drivers, and emergency first responders, the development 
of security systems that allow the operator to ``kill'' a bus's engine 
via a radio signal, to the purchase of digital cameras for bus staging 
areas, maintenance facilities, and garages, and the purchase of Global 
Positioning Satellites systems (GPS) to give the operator real-time 
information on bus locations. The relatively minor sums of the IBSGP 
are not completely responsible for the security upgrades noted above 
but the IBSGP funds along with the bus operators' own funds have 
contributed to these security advances.
    My plea to the committee is simple. The bus industry is in need of 
continued security funding. The fact that the grantees so far have been 
domiciled in all fifty States is testimony to the nature of the threat. 
Tourist destinations, transportation facilities and the buses 
themselves are targets. It is instructive to note, according to the 
Mineta Transportation Institute, that worldwide over the last century 
buses and bus facilities have been prime terrorist targets. Moreover, 
the Transportation Security Administration (TSA) in its recently 
released threat assessment of the intercity bus industry in effect 
applauded the IBSGP as necessary to protecting the Nation's many bus 
passengers. Finally, in April of this year the Highway Information 
Sharing and Analysis Center (Highway ISAC) released a document 
detailing the ``Potential Threat Towards Buses'' stating that: 
``Motorcoaches are considered as potential targets by terrorists 
because they are relatively `soft targets' . . . Motorcoaches may be 
targeted for the number of passengers they transport, and the potential 
for them to be used as weapons. Motorcoaches are often views as 
innocuous to law enforcement and are able to gain close access to 
critical infrastructure.'' (A copy of the Highway ISAC report is 
attached). All the information at hand points to the continuing need 
for an IBSGP.
    While the need for bus security funds may seem obvious and the sums 
heretofore appropriated for it relatively minor, ABA is concerned about 
two recent developments. The first is the reduction of funds for bus 
security grants. The reduction of the IBSGP by more than half is, in 
our view, not consistent with the conclusion that bus security for its 
760 million passengers must be a high priority especially when compared 
with the billions of dollars spent on air and rail security. The second 
development is the merging of the IBSGP into transit security. ABA and 
its members do not contest the view that transits must be secure. 
However, we are concerned that IBSGP applications will receive lessened 
consideration and fewer resources when placed alongside applications by 
transit agencies for vastly more security resources.
    In summary, ABA asks for a restoration of the IBSGP funding to the 
level prior to fiscal year 2011. In addition we ask that the IBSGP 
remain an ``independent'' program. The security needs of these two 
modes are not identical and each should be considered separately. In 
ABA's view, the bus industry's security needs are best met with, as 
they have been until now, with a series of relatively small grants to a 
wide range of bus operators over the many States. This is in contrast 
to the large grants made to small numbers of large transit agencies 
with smaller ``footprints'' but larger coverage areas.
    The ABA and its members ask for your support for the IBSGP. The 
Nation and the 760 million passengers who ride the private over-the-
road buses are depending on your support to continue to keep them safe. 
Thank you for your consideration.


                          A P P E N D I X  I I

                              ----------                              

  Question From Honorable Laura Richardson of California for John S. 
                                Pistole
    Question. What is the status of TSA/FEMA efforts to develop 
measures of effectiveness for TSGP grants and the administration of the 
grant program?
    Answer. Response was not received at the time of publication.
  Question From Honorable Laura Richardson of California for W. Craig 
                                 Fugate
    Question. What is the status of TSA/FEMA efforts to develop 
measures of effectiveness for TSGP grants and the administration of the 
grant program?
    Answer. Efforts to measure the effectiveness of the Transit 
Security Grant Program (TSGP) grants are underway but require 
additional work. FEMA has developed a few performance measures and is 
working to collect the data for these measures through its programmatic 
grants monitoring tool. The information that was used in the fiscal 
year 2010 monitoring process looked at TSGP projects completed, as 
compared to the total projects approved for the agencies monitored. 
Data for this measure are derived from the information that is 
collected from TSGP grantees during monitoring desk reviews and site 
visits conducted by FEMA's Grant Programs Directorate (GPD) Program 
Analysts. Beginning in fiscal year 2010, Program Analysts used a 
Programmatic Grants Monitoring database to track grantees' progress 
toward the implementation and completion of TSGP projects, including 
projects' alignment to the preparedness cycle (planning, operational 
packages, equipment, training, and exercises). The progress scores for 
projects were extracted from the monitoring database and the results 
were imported into a monitoring report for analysis.
    GPD and National Preparedness Directorate (NPD) are also working 
together to develop additional performance measures that will aid in 
determining how well the grants are managed and the overall 
effectiveness of the grant programs, including the TSGP American 
Recovery and Reinvestment Act of 2009 (ARRA) awards. As GPD and NPD 
collaborate, they will also work with the Transportation Security 
Administration (TSA) to develop more meaningful measures.
  Question From Honorable Laura Richardson of California for Richard 
                                Daddario
    Question. What are the roles and responsibilities of the New York 
Police Department across New York's Metropolitan Transportation 
Authority?
    Answer. Response was not received at the time of publication.
Questions From Honorable Laura Richardson of California for Richard L. 
                               Rodriguez
    Question 1. You mentioned in your testimony that the CTA had 
planned to use future funds to install cameras on the rest of its rail 
cars in 2012, but because of a reduction in funding, this action will 
have to be delayed.
    What effect does the delay in installing these security cameras 
have on the Chicago Transit Authority's ability to protect citizens?
    Answer. Response was not received at the time of publication.
    Question 2. Will these cameras simply have to be temporarily 
replaced by more of a ground presence by the Chicago Police Department, 
or does it mean something more significant?
    Answer. Response was not received at the time of publication.
 Questions From Honorable Laura Richardson of California for Daniel O. 
                                Hartwig
    Question 1. When compared to New York and Chicago transit systems, 
the Bay Area is by far younger and faces different challenges than 
those presented to older and condensed systems.
    Can you briefly explain some of these challenges and elaborate on 
some of the security improvements that transit security grants have 
allowed you to make over the last few years?
    Answer. Challenges: To secure funding to complete security projects 
identified by four different Threat and Vulnerability assessments of 
the Bay Area Rapid Transit System. To protect our most critical and 
vulnerable asset based upon location and environment (on the bottom of 
the San Francisco Bay) attaching the East Bay (Oakland) into the West 
Bay (San Francisco) Direct TSGP funding has already been allocated to 
this location to ultimately provide a ``surface barrier'' as well as a 
``marine barrier''. Without this funding, we would not be able to 
protect these critical assets at the level required.
    Alarms, infrared sensors, and CCTV-enhanced and upgraded at this 
location with TSGP grants. Tube, tunnels, and underwater transit 
locations are identified as at ``high risk''. Our system is made up of 
approximately \1/3\ tubes, tunnels, and underwater locations.
    Question 2. Mr. Hartwig, can you please provide us with specific 
examples on how the use of TSGP funds has mitigated risks for terrorist 
attacks?
    Answer. Mitigated risks: TSGP funds allow us to directly impact our 
most vulnerable and at-risk properties. Creating multiple layers of 
security hurdles to prevent the successful delivery of a terrorist 
attack. Training of police officers with current and reliable 
intelligence regarding threats against transit properties. Training 
front-line employees to be additional ``eyes and ears'' of our system 
provides another layer of security. Educating our ridership to 
recognize and react. ``See Something, Say something.'' Collaboration 
and partnership with local regional transit properties, produced 
unified message posted in all transit properties (Transit Watch). 
Utilizing Operational Packs to create a ``Critical Asset Patrol Team'' 
that is assigned to our critical asset corridor. Riding on trains day 
and night in random patterns to deter and mitigate the effects of any 
act of terrorism. K-9 teams trained to detect explosives.
    Alarms, sensors and CCTV applications.
    If Ms. Richardson would like, I can be available to speak with her 
via phone to discuss our Security Sensitive Information (SSI) projects 
which are heavily funded by the TSGP.

                                 <all>

</pre></body></html>
